       PUBLIC
      RELEASE


          INTERNATIONAL TRADE
               ADMINISTRATION

US&FCS Germany: While Generally
 Productive, Its Priorities, Resources,
 and Activities Require Reassessment

       Inspection Report No. IPE-9287 / July 1997




     Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                              Final Report IPE-9287
Office of Inspector General                                                                                           July 1997



                                               TABLE OF CONTENTS

                                                                                                                           PAGE

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          I.        PROGRAM ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                    A.  Some Market Research Being Driven by Numbers Instead of Need . . . . . 7
                    B.  Country Commercial Guide Needs to Better Reflect Marketing
                        Characteristics of Eastern Germany . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                    C.  Showcase Europe Impact Questionable and Should Be More
                        Precisely Measured . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    D   Increased Travel and Tourism Effort Required . . . . . . . . . . . . . . . . . . . 11
                    E.  Performance Measurements Needed . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
                    F.  Trade Fair and International Buyer Program Participation Need
                        Reassessment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                    G.  Technical Support and Training Inadequate . . . . . . . . . . . . . . . . . . . . . . 15
                    H.  BXA Guidance Is Not Being Followed . . . . . . . . . . . . . . . . . . . . . . . . . 17

          II.       STAFFING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    A.   Planning and Staffing Delayed by Poor Cooperation and Leadership . . . 19
                    B.   Draft Staffing Plan, While a Good Start, Is Inadequate . . . . . . . . . . . . . 20

          III.      POST MANAGEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              22
                    A.   Post Management Dedicated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             22
                    B.   SCO Priorities and Management Style Have Negatively Affected Post
                         Management and Operations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             23
                    C.   Uneven Relationships with Other Agencies in Germany . . . . . . . . . . . . .                           24
                    D.   Mixed Relationships with Other US&FCS Elements . . . . . . . . . . . . . . .                            25
                    E.   ICASS Requires Greater SCO Involvement . . . . . . . . . . . . . . . . . . . . . .                      25
                    F.   Large Influx of PSCs Helps Operations but Has Disadvantages . . . . . . .                               27

          IV.       CONSTITUENT POSTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
                    A.  Berlin . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
U.S. Department of Commerce                                                                                Final Report IPE-9287
Office of Inspector General                                                                                             July 1997



                  B.       Düsseldorf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      33
                  C.       Frankfurt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   36
                  D.       Hamburg . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     39
                  E.       Munich . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    41

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44

APPENDIX 1: LIST OF ACRONYMS

APPENDIX 2: LIST OF US&FCS SERVICES

ATTACHMENT: US&FCS’S RESPONSE TO THE DRAFT REPORT
U.S. Department of Commerce                                                      Final Report IPE-9287
Office of Inspector General                                                                   July 1997



                                    EXECUTIVE SUMMARY

Located in the center of Europe, Germany is the dominant economy on the continent. It is the
United States’ fifth largest trading partner. The 1990 unification of prosperous West Germany
with relatively underdeveloped East Germany added 15 million people and expanded export
opportunities for U.S. firms doing business in Germany. Conducting export related business in
Germany is often straightforward for U.S. firms, though the assistance of the U.S. and Foreign
Commercial Service (US&FCS) can play a key role in recruiting new-to-market firms and
expanding the exports of veteran export companies. Germany is the trade fair capital of the
world, attracting several million buyers annually, some of whom receive services from the
US&FCS Germany post. US&FCS Germany has played a central role in Showcase Europe, an
International Trade Administration initiative designed to increase the visibility and integration of
individual European markets.

US&FCS Germany having long had one of the largest staffs of US&FCS overseas offices,
currently has 47 staff, including 11 American officer positions (of which five are vacant). The
post is facing a number of challenges that will affect its operations, products, services, and
resources. Because US&FCS worldwide staffing has been stagnant in recent years, and ITA
management has reallocated some resources to its high priority Big Emerging Markets, US&FCS
Germany is faced with the challenge of maintaining and even increasing its effectiveness with
fewer staff. It is also planning for the move of the German capital from Bonn to Berlin, scheduled
to take place in 1999. This move will require US&FCS Germany to relocate its chief post and
will have implications for both its resources and its operations.

For the most part, we found that US&FCS Germany delivers high quality services and products.
The clients we spoke to are overwhelmingly pleased with its efforts, and US&FCS headquarters
managers rate the post’s products and services highly. We also found the Senior Commercial
Officer (SCO) and other staff have developed several programs and special efforts to effectively
promote U.S. exports to Germany and the rest of Europe. However, performance measures are
not widely employed, making effectiveness difficult to measure, and as with any US&FCS post,
“right sizing,” or determining the proper mix and number of staff for this post, is difficult.

During our visit, we noted the following issues and concerns that warrant US&FCS
management’s attention:

C      While US&FCS Germany appears effective, certain products, services, and activities
       need improvement, reexamination, or justification. We found that at least some
       market research products were being produced to meet perceived headquarters quotas, or
       other numerical goals, rather than to meet a discernable and identifiable demand. (See
       page 7.) In addition, the FY 1997 Germany Country Commercial Guide, an important
       counseling and planning tool for the embassy, is inadequate because it does not provide

                                                  i
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



       sufficient information on trade in eastern Germany. (See page 9.) We also found that the
       impact of Showcase Europe—a major trade promotion initiative with significant post
       resources devoted to it—is questionable and should be measured more carefully. (See
       page 10.)

       Also, US&FCS Germany needs to make an increased effort to promote travel and
       tourism. The 1996 shutdown of the U.S. Travel and Tourism Administration makes
       US&FCS efforts critical to enhancing the number of Germans visiting the United States.
       We agree with the post’s decision to hire an employee who spends most of her time on
       travel and tourism. (See page 11.)

       US&FCS Germany does not perform adequate follow-up on its products and services in
       order to measure the impact of its operations and its effectiveness in serving the American
       business community. Without this information, the post cannot determine:
       (1) the relative importance and impact of its products and services, (2) whether to modify,
       add, or delete products and services, or (3) the appropriate amount of resources to devote
       to its programs or to the post overall. (See page 12.)

       However, we think that the level of participation in US&FCS’ trade fair and International
       Buyer Program activities is questionable and needs to be reassessed. Management agreed
       that the level of participation may be excessive and conceded that the impact of some
       events were questionable. By reducing overall trade fair and International Buyer Program
       efforts and focusing more heavily on events where US&FCS participation is the most
       critical, resources can be more effectively allocated. (See page 14.)

       We also determined that technical support and training for the post’s staff are inadequate,
       and likely degrading the post’s productivity. (See page 15.) Finally, the post is not
       properly conducting pre-license checks according to the regulations of the Bureau of
       Export Administration, which issues export licenses for dual-use exports from the United
       States. (See page 17.)

C      US&FCS Germany must better plan and justify staffing decisions. Needed changes
       to the post’s staffing levels and distribution have been hampered by poor headquarters-
       post cooperation, lack of headquarters leadership, and lack of responsiveness by the SCO.
       It is only recently that the post developed a draft plan that addresses these issues. We
       agree with the post’s draft restructuring plan that calls for more effective staff distribution
       and the elimination of the Leipzig satellite office. However, the plan is inadequate because
       (1) it may not result in any reductions in staff, which is the expressed desire of US&FCS
       headquarters, and (2) it does not adequately justify proposed staffing changes. (See page
       19).


                                                 ii
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



C      Though US&FCS Germany management is dedicated, improvements are needed.
       While the SCO and the deputy SCO are hard working and dedicated, we are concerned
       that the post’s overemphasis on certain priorities has had a negative impact on other
       aspects of post management and operations. Although devoting attention to high-level
       advocacy and policy issues, the SCO has not been adequately involved in important
       administrative and management matters. For example, by not appropriately addressing
       several administrative issues, the SCO created unnecessary friction with US&FCS
       constituent posts in Germany. In addition, the SCO’s management style has led to some
       cooperation and coordination problems with US&FCS headquarters and other agencies.
       (See page 23.) The SCO also needs to involve himself more heavily in the changes to the
       administrative cost system (known as the International Cooperative Administrative
       Support Services, or ICASS) now taking place. (See page 25.)

C      Constituent posts are generally productive, but location, morale, and management
       weaknesses hamper their effectiveness. Overwhelmingly, we found that the staff at the
       constituent posts are dedicated and hard working, and often the creators of innovative and
       effective programs. However, for a variety of reasons, morale needs improvement at
       many of the constituent posts. In addition, improved cooperation with the United States
       Information Service (USIS) and the location of US&FCS offices in Frankfurt and Berlin
       are issues that need management attention.

       —       The relocation of the Berlin post requires careful reconsideration. US&FCS Berlin
               may soon be faced with vacating the space it currently holds in the Berlin Embassy
               Office. The post currently favors relocation to a particular site outside the main
               business district, but we believe that relocation should not take place until the post
               fully explores the possibility of collocating with USIS at its Amerika Haus, which
               is located near the main business district. (See page 28.)

       —       The Düsseldorf Consul General has been helpful in furthering U.S. business
               interests in the city, but the post requires a full-time commercial officer to
               effectively manage the US&FCS employees and maintain a full-time U.S.
               commercial presence there. (See page 33.)

       —       In Frankfurt, the US&FCS office has significant morale and management
               problems. The previous commercial officer had poor relations with USIS, thereby
               hampering US&FCS export promotion efforts and lessening the possibility of
               sharing office space with USIS. His successor will need to explore the possibility
               of collocating with USIS and ensure that several administrative and operational
               problems are rectified. (See page 36.)



                                                 iii
U.S. Department of Commerce                                                   Final Report IPE-9287
Office of Inspector General                                                                July 1997



       —       The proposed closing of the US&FCS post in Hamburg needs re-evaluation.
               Many other nations have increased their presence in Hamburg recently, in large
               part to take advantage of the recently expanded shipping and trade opportunities
               with the Newly Independent States and other nations. Hence, US&FCS should
               carefully examine the trade potential in the Hamburg area and re-evaluate its plans
               for staffing Hamburg. (See page 39.)

       —       The commercial officer in Munich needs to improve morale and agency
               relationships. Poor relations with the his own staff, the SCO, and the State
               Department have detracted from the efforts of this creative and hard working
               individual. (See page 41.)

On page 44, we offer a number of recommendations to address our concerns.



In responding to our draft report, US&FCS officials generally agreed with our observations and
conclusions. US&FCS also provided some additional information, which we used to make minor
modifications to our report, as appropriate. A copy of US&FCS’s complete response is included
as an attachment.




                                                iv
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



                                       INTRODUCTION

Pursuant to the Inspector General Act of 1978 and the Omnibus Trade and Competitiveness Act
of 1988, the Office of Inspector General conducted an on-site inspection of the U.S. and Foreign
Commercial Service (US&FCS) operations in Germany during the weeks of September 9-13 and
September 23-27, 1996. We visited posts in Berlin, Bonn, Düsseldorf, Frankfurt, and Munich.
We did not visit the small posts in Hamburg or Leipzig, but we did (1) have extensive discussions
with the recently retired Principal Commercial Officer (PCO) from Hamburg, (2) review all
monthly reports for both sites for the last 12 months, and (3) hold extensive discussions about the
Leipzig post with the Berlin PCO, who supervises the satellite office, and with the Germany
Senior Commercial Officer (SCO).

We discussed our preliminary observations with US&FCS management at constituent posts and in
Bonn, and with officials throughout US&FCS headquarters, including the Director General of
US&FCS, the Deputy Assistant Secretary for International Operations, and the regional manager
for Europe. We also held telephone discussions and asked follow-up questions of previous
commercial officers who served in Germany in the recent past. Finally, when observations we
made for Germany seemed more relevant to headquarters or US&FCS overall, we used these
preliminary findings as a basis to follow up with relevant International Trade Administration
offices, officials, and other agencies.

Inspections are special reviews that the OIG undertakes to provide agency managers with timely
information about operations, including current and foreseeable problems. Inspections are also
conducted to detect and prevent fraud, waste, and abuse and to encourage effective, efficient, and
economical operations. By highlighting problems, the OIG hopes to help managers move quickly
to address those identified during the inspection and avoid their recurrence in the future. By the
same token, inspections may also highlight exceptionally effective programs or operations,
particularly if they may be useful or adaptable for agency managers or program operations
elsewhere.


                                    PURPOSE AND SCOPE

The purpose of the inspection was to evaluate the effectiveness of US&FCS Germany in assisting
U.S. businesses to expand their trade and marketing opportunities in Germany. We also examined
the policies, procedures, and practices being followed by selected US&FCS constituent posts in
Germany in carrying out assigned functions. This included determining whether established goals
were being achieved, evaluating the economy and efficiency of operations, and assessing the
post’s compliance with applicable regulations and instructions. In addition, we analyzed
US&FCS Germany’s management of resources and their distribution among Germany’s offices


                                                 1
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



and posts, and implementation of major US&FCS initiatives in Germany, such as Showcase
Europe.

In conducting the inspection, we (1) reviewed the organizational structure and operating
approaches used in administering activities at the posts; (2) interviewed appropriate officials with
ITA, the State Department, and other agencies and organizations relevant to US&FCS operations
in Germany; (3) examined pertinent files and records relating to the posts' operations; and
(4) interviewed U.S. firms and individuals conducting business in Germany.

In Section IV, we report our impressions of the operations of the constituent posts we visited in
Germany (Berlin, Düsseldorf, Frankfurt, and Munich,) and the two smaller offices we did not visit
(the Hamburg constituent post and the Leipzig satellite office) for which data was reviewed and
key officials interviewed. For each office, we have noted what we felt were the most significant
issues affecting their operations. The fact that we are reporting a negative finding in one office
and not another is not to say that the problem also does not exist in the second office, but that
other problems appeared to be relatively more serious in one office than another.

The review was conducted in accordance with the Inspector General Act of 1978, as amended,
and the Quality Standards for Inspections, issued by the President’s Council on Integrity and
Efficiency.




                                                 2
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



                                         BACKGROUND

ITA’s mission is to encourage U.S. exports by implementing a National Export Strategy,
including by focusing on the Big Emerging Markets (BEMs), by providing industry and country
analysis for U.S. business, and by supporting new-to-export and new-to-market businesses. ITA
also seeks to ensure that U.S. businesses have equal access to foreign markets by advocating on
behalf of U.S. exporters who are competing for major overseas contracts, and by implementing
major trade agreements, such as the General Agreements on Tariffs and Trade, the North
American Free Trade Agreement, and the Japan Framework. ITA also seeks to help U.S.
businesses compete against unfairly traded imports and safeguard jobs and the competitive
strength of American industry by enforcing antidumping and countervailing duty laws and
agreements that provide remedies for unfair trade practices.

ITA is organized into four primary units. US&FCS provides business counseling through a
network of 93 domestic offices (including 19 Export Assistance Centers) and 134 overseas offices
and commercial centers in 69 countries. Trade Development is composed of industry sector
specialists who are to provide information and analysis to U.S. exporters, policy-makers, and
trade negotiators. Market Access and Compliance (formerly known as International Economic
Policy) has country experts who primarily provide assistance for U.S. firms to acquire market
access, maintain knowledge of current trade policy environment and issues affecting the ability of
U.S. firms to gain a foothold on a foreign market and track compliance to U.S. trade U.S. trade
agreements. The Import Administration safeguards American businesses and the economy from
unfairly priced imports.

The US&FCS overseas posts perform a number of activities that are directed at improving the
trade position of the United States, including (1) identifying trade opportunities for U.S. products,
(2) finding potential representatives or agents for U.S. firms interested in penetrating a specific
market, (3) providing business consultation for U.S. visitors at foreign posts and making business
appointments for them to see potential trading partners or host government officials,
(4) assisting in the implementation of U.S. export controls and other trade regulation activities,
and (5) preparing market research on a country’s “best prospects” industries. US&FCS posts
often assist one another in regional initiatives and other multinational programs, including the
BEM initiative and Showcase Europe.

Germany occupies a Montana-sized area in the heart of Europe. Germany’s 81 million population
is well distributed throughout the nation, with the bulk living in small and medium-sized cities.
The Federal Republic of Germany (West Germany) and the German Democratic Republic (East
Germany) united in 1990. The permanent seat of government for the unified Germany will be
moved from Bonn to Berlin; the move is scheduled for completion by the year 2000.



                                                 3
U.S. Department of Commerce                                                        Final Report IPE-9287
Office of Inspector General                                                                     July 1997



Germany’s economy is the third largest in the world, with a $2.4 trillion gross domestic product,
and accounts for about a quarter of the Gross Domestic Product of the European Union.1
Overall, the German market for U.S. exports is about $32 billion annually. The greatest
competition for U.S. exporters is from domestic producers in Germany, because of the conviction
of many consumers and businesses that German products are superior.

With the 1990 unification, Germany began the major task of bringing the standard of living of
Germans in the former East Germany up to that of the West Germans. Eastern Germany has a
less developed economy than western Germany, due to its recent move from a primarily
government-controlled economy to privately owned enterprises. Infrastructure weaknesses in
eastern Germany present export opportunities for U.S. companies in many areas, including road
construction services, and energy production products and services.

US&FCS Germany is one of the largest US&FCS overseas operations, in terms of both budget
and number of posts. US&FCS Germany was budgeted $3.15 million for FY 1996 and $3.30
million in FY 1997 to promote U.S. exports in the 16 states of Germany. There are seven
posts/offices in Germany located in the following cities: Berlin, Bonn, Düsseldorf, Frankfurt,
Hamburg, Leipzig, and Munich. Leipzig is a satellite office with two employees, managed by the
Berlin staff. (See Exhibit 1.) In July 1996, US&FCS closed its operation in Stuttgart. There are
currently 11 American officer positions in Germany, five of which are vacant. There are also 24
Foreign Service Nationals (FSNs), excluding 3 vacancies, and 12 employees working under


                   Exhibit 1: US&FCS Office Locations in Germany



                                     Hamburg

                                           Berlin

                            Düsseldorf     Leipzig
                         l Bonn
                              Frankfurt

                                      Munich




   1
    For calendar year 1995. Source: Fiscal year 1997 “Germany: Country Commercial Guide.”

                                                     4
U.S. Department of Commerce                                                        Final Report IPE-9287
Office of Inspector General                                                                     July 1997



personal service contracts (PSCs). Between FY 1993 and FY 1997, the distribution of personnel
types and location have changed, but the overall staffing level has not varied greatly, from 43 to
49 full-time workers. Both headquarters and US&FCS Germany agree that the budget is
adequate for accomplishing the mission in Germany. The budget provides US&FCS Germany
with flexibility in hiring, travel, and trade event activities. Non-American personnel costs are the
largest component, at $2.83 million of the $3.30 million FY 1997 budget. FSNs cost $2 million
and PSCs, $0.83 million. The US&FCS Germany posts’ current staffing levels and their areas of
coverage are shown in Table 1.

                  Table 1: Staffing Levels and Area of Coverage for US&FCS Germany

     Office or        American
    Constituent        Officers    FSNs                Area of Coverage and         Selected Industries
       Post          (vacancies)   (vac)   PSCs             Population               Covered by Post
    Bonn             3             4       3      Supervises all other posts          Telecommunications

    Berlin           2             3       4      States of Berlin, Brandenburg,     Engineering services,
                                                  Sachsen-Anhalt,, and                       construction
                                                  Mecklenburg-                        equipment, building
                                                  Vorpommern—10.8 million                        products

    Leipziga         0             2       0      Sachsen and Thuringia—4.6                     Publishing
                                                  million

    Düsseldorfb      0(1)          5(1)    2      North Rhine-Westphalia—17.7          Medical equipment,
                                                  million                            computer services and
                                                                                       software, household
                                                                                           consumer goods

    Frankfurt        2(2)          3       2      States of Hessen, Rheinland            Travel & tourism,
                                                  Pfalz, and Saarland, parts of       textiles, automobiles
                                                  Baden-Württemburg—13.4                     and auto parts
                                                  million

    Hamburg          1(1)          1(1)    1      States of Bremen, Hamburg,          Port & ship building,
                                                  Lower Saxony, and Schleswig-                  equipment,
                                                  Holstein—12.6 million             biotechnology, seafood

    Munich           2(1)          6(1)    0      States of Bayern and parts of         Aircraft and parts,
                                                  Baden-Württemburg—21.6                   processed food,
                                                  million                                       electronics

    TOTALS           10(5)         24(3)   12     All of Germany—80.7 million

    Total Staff       =       46 (8)
a
Satellite office of Berlin.


                                                   5
U.S. Department of Commerce                                                                 Final Report IPE-9287
Office of Inspector General                                                                              July 1997


b
The Consul General is not counted because the officer is on detail to the State Department and is filling a State
Department position as Consul General.
Between FY 1993 and FY 1996, a large rise in PSCs, from 1 to 12, occurred, while the number of
on-board American officers dropped by 4, or 36 percent, and the number of FSNs dropped by 9, a
27 percent decrease. Table 2 shows the changes in staffing levels.

The responsibilities of US&FCS Germany increased in 1990, with the addition of the former East
Germany to its portfolio. The addition of eastern Germany also meant a different focus for that
part of the US&FCS program, given the differing market conditions and industrial needs of the
east. By reassigning staff from elsewhere in Germany and increasing the use of technology and
other techniques, US&FCS continues to produce products and services that are rated highly by
ITA and many customers. In addition, the 1996 closing of the US&FCS Stuttgart post (as the
State Department was also greatly reducing its presence in Stuttgart), the significant reduction in
the Hamburg staff, and minor staff changes at several other constituent posts also helped the post
shift resources to provide coverage of the expanded area.


                          Table 2: US&FCS Germany Staffing by Type and Fiscal Year



           Type of Staff                      FY 93            FY 94     FY 95       FY 96           Current
     American Officer                         11(na)a          11(na)a   11(na)a     10 (5)            10(5)
     (vacancies)
     FSN (vacancies)                          33 (7)b          35 (6)b   29 (3)      24 (3)            24(3)
     PSC                                          1              2         5           12                12
     Totals                                      46b            49b        45          46             46 (8)
a
  Not available
b
    Includes one part-time, intermittent, temporary employee




                                                                     6
U.S. Department of Commerce                                                   Final Report IPE-9287
Office of Inspector General                                                                July 1997



                          OBSERVATIONS AND CONCLUSIONS


I.     PROGRAM ACTIVITIES

In general, we determined that US&FCS Germany is effective in its operations and delivers high
quality services and products. US&FCS Germany’s clients were generally pleased with the
quality and timeliness of its services and products. Our interviews with clients, discussions with
post and headquarters staff, and review of documents show that US&FCS Germany’s trade
promotion products and services are highly regarded. For example, according to headquarters
staff, the Industry Sector Analyses (ISAs) produced by US&FCS Germany are often used as
models for other US&FCS posts. In addition, staff work at trade shows is generally perceived as
helpful by U.S. companies.

However, we also have questions about some of the post’s products. Specifically, some market
research was driven by a perceived need to meet headquarters’ quotas, International Marketing
Insights (IMIs) and the Showcase Europe efforts are of unknown benefit, and the Country
Commercial Guide needs improvement in order to be a more effective marketing tool. In
addition, performance measurement efforts are virtually nonexistent, and the amount of post
resources devoted toward trade fair and International Buyer Program activities needs to be
reviewed for necessity and possible reduction.

A.     Some Market Research Being Driven by Numbers Instead of Need

At least some market research was being produced by US&FCS Germany due to a perception at
the post that US&FCS headquarters was demanding a predetermined number of reports or
quotas, rather than to meet any real and identifiable demand for particular reports. Furthermore,
neither the Senior Commercial Officer nor headquarters has any means for determining (1) who
reads these reports, (2) whether the appropriate number are produced, or (3) which topics,
industries, or markets are most in demand. It was therefore difficult to determine whether the
post’s market research program had the appropriate level of resources devoted to it or had its
intended impact.

The SCO in Germany was persistent in his contention that headquarters was evaluating posts, at
least in part, on how many products were being produced. He showed us examples of slides
comparing numbers of IMIs, for example, that were distributed to all posts—the implication being
that this is how Germany and other US&FCS posts were being judged. It was clear from
interviews with staff throughout Germany and other American officers that the SCO believed that
the number of products produced must be kept at a high level.



                                                7
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



We were also told that some of the reports produced were of questionable usefulness to U.S.
businesses. For example, in FY 1996, US&FCS Germany produced 25 ISAs, which are
evaluations of industry components geared toward helping U.S. businesses learn about a specific
export market, such as construction materials. However, several Germany staff indicated that
some Industry Sector Analyses were too narrow in scope to be useful to a significant number of
U.S. businesses. US&FCS Germany is now examining this issue and is making efforts to avoid
choosing subsectors that are too narrow to produce substantial benefit. ISAs require time-
consuming, in-depth research, often by a highly skilled Foreign Service National. ISAs should be
chosen carefully to maximize the impact and use of scarce resources.

We also have questions about the quantity and value of US&FCS Germany’s IMIs. For example,
at the Berlin post, all staff members were required by their performance plans to produce at least
two IMIs per month. In FY 1996, US&FCS Germany reported completing 136 IMIs, which are
brief reports on specific foreign market conditions and upcoming opportunities for U.S. business
on topics such as trade laws and regulations, trade show opportunities, and upcoming major
projects and purchases.

While we saw many well-written International Marketing Insights, we also saw questionable ones
that management agreed did not appear to fit a reasonable definition of marketing information.
For example, one IMI reported what took place at a trade fair—giving no specific marketing
opportunities or information. More importantly, neither post staff nor management could attest
to the uses of the IMIs or their impact on trade. Staff and management further agreed that there
was a sense that a quota of IMIs had been placed upon each office by Bonn management. The
SCO stated that headquarters did not have a stated quota of market research, but that it is clear
from comparisons of various posts around the world that “keeping the numbers up” is important.
The perception that there are quotas for market research reports is shared by management at
US&FCS Poland, a post we also inspected in September 1996.

Headquarters policy on market research needs to be clear, because it affects priority setting and
use of scarce resources. All posts should have a clear understanding of which market research
reports are critical to their viability and competition with other posts for resources. Headquarters
officials, including the regional manager responsible for Germany, claimed no quota is placed on
the number of reports produced by any post. However, if the post management believes a quota
is in place, some of these reports may be unnecessarily produced solely to please headquarters.



In response to our draft report, US&FCS did not directly address our recommendation that the
agency should issue guidance stating how post-produced products and services are to be used in
assessing post performance. US&FCS did not disagree that there is a perception of quotas on
IMI production for each constituent post. In addition, US&FCS stated that headquarters will

                                                 8
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



request that ITA’s Export Promotion Services issue an advisory cable to all posts indicating the
rationale for conducting ISAs and IMIs. While this may be useful, we reiterate the need for
US&FCS to issue clear guidance on how products and services are to be used in assessing post
performance.


B.     Country Commercial Guide Needs to Better Reflect Marketing Characteristics of
       Eastern Germany

The latest Germany Country Commercial Guide (CCG) does not adequately reflect the unique
characteristics of eastern Germany. Consequently, the CCG is of limited usefulness to U.S.
businesses who may want to consider trade and investment in eastern Germany, nor can it be used
effectively as a counseling tool by the Berlin post staff—whose primary responsibility is that
region. Similarly, CCG information on eastern Germany is of limited usefulness to trade
specialists at other posts or in US&FCS domestic offices who may also counsel U.S. businesses
on market opportunities in the region. US&FCS Germany is required, as are all posts, to take the
lead in preparing a CCG that reflects market, trade, investment, economic, political, and
demographic information that is of direct interest and value to the U.S. business community.

The CCG focuses on German trade fairs as the primary vehicle for marketing U.S. products,
without recognizing that this is not the case in eastern Germany. The Berlin post maintains that
the primary way of penetrating eastern Germany is through trade missions, which it conducts
jointly with the German government. Other US&FCS sources of information on eastern Germany
stressed that U.S. companies can best do business in the east by buying business facilities outright,
opening branch offices, or forming joint ventures. Furthermore, the CCG does not distinguish
between the country, economic, and market data for the former East and West Germany or
otherwise help a U.S. business learn important differences between the two areas of Germany.
This type of information could be useful to U.S. businesses as well as to US&FCS trade
specialists in Germany and in domestic field offices.

Eastern Germany is unlike highly developed and decentralized western Germany. It has a less
developed economy, unemployment is higher, and there has been significant environmental
degradation. In addition, the economic infrastructure in the east is far below that of the west and
still requires an enormous infusion of capital. In fact, the time required to bring the economy and
infrastructure of eastern Germany on a par with that of the west was greatly underestimated. It
may take decades. It is within this framework that US&FCS Berlin operates and provides
products and services to U.S. businesses seeking to enter or expand their participation in the
eastern German market.




                                                 9
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



The FY 1997 CCG only briefly discusses eastern Germany’s economy and does not focus on best
prospects for the region. For example, the CCG indicates that the best prospects for U.S.
business are computer software, computers and peripheral equipment, electronic components,
franchising, computer services, aerospace, industrial chemicals, drugs and pharmaceuticals, and
plastics. However, recent US&FCS reports on the market in eastern Germany indicate that its
best prospects are architectural and engineering services, housing and renovation services, power
generation equipment, medical equipment, environmental services and technologies, business
services, tourist services, and leisure time facilities. These eastern Germany market opportunities
need coverage in the Germany CCG.



US&FCS concurred with our recommendation that its Germany CCG include a section that
focuses on the eastern Germany market. However, we believe that the new section should be an
integral part of the guide, rather than an addendum, as the US&FCS response states. The
potential for growth of U.S. exports to eastern Germany is large, and should be reflected in the
main body of the guide.


C.     Showcase Europe Impact Questionable and Should Be More Precisely Measured

US&FCS Germany has devoted significant resources to Showcase Europe in the last two years,
resulting in many activities and events, but having an uncertain impact on U.S. exports. The
Showcase Europe strategy attempts to coordinate US&FCS efforts in order to approach the
European market on a regional basis and to move U.S. firms already exporting to one or more
European markets into additional markets. Breaking trade barriers and accelerating integration of
the economies of Central Europe, Russia, and the Newly Independent States are also the goals of
Showcase Europe.

US&FCS Germany has put a great deal of effort into developing and implementing Showcase
Europe. For example, US&FCS Germany coordinates the Showcase Europe medical sector (one
of the five sectors upon which the initiative focuses) activities and is hosting a conference on
Bosnia aimed at developing trade with that nation. US&FCS Germany staff stated that Showcase
Europe events are a priority in their work plans. Germany’s quarterly reports highlight Showcase
Europe contributions.

While Showcase Europe activities are plentiful and have increased cooperation within US&FCS,
exports resulting from Showcase Europe, are apparently difficult to document. For example,
“Showcase Europe Highlights —April 1995-May 1996” (a document produced by US&FCS’s
European posts) did not list export actions or reductions in trade barriers that could be linked to
Showcase Europe. Several actions led to increased U.S. exports, but the actions were not clearly

                                                10
U.S. Department of Commerce                                                                Final Report IPE-9287
Office of Inspector General                                                                             July 1997



the result of Showcase Europe. Cables, trade fair reports, and interviews with US&FCS staff in
Germany and the United States indicate that Showcase Europe has increased information
exchange and cooperation among European posts, which could lead to more efficient and
effective export efforts.

Since it is unclear whether Showcase Europe is effective, and given that a significant amount of
resources in US&FCS Germany and other European posts are devoted to the initiative, we think
that US&FCS should develop a method to more accurately measure its costs and benefits. For
example, staff could report the hours and outlays devoted to Showcase Europe work that is
beyond what would be spent in the course of normal post duties. After the impact is measured,
we believe that Germany should make appropriate adjustments in its commitment.


US&FCS concurred with our recommendation that US&FCS Germany and other European posts
should develop a method to accurately measure the impact, costs, and benefits of Showcase
Europe. US&FCS indicated that the Showcase Europe steering committee recognizes this
problem and will address it during the summer of 1997.


D.      Increased Travel and Tourism Effort Required

After the 1996 shutdown of Commerce’s United States Travel and Tourism Administration
(USTTA), US&FCS Germany acted responsibly in assigning staff to the tourism industry.
US&FCS Frankfurt hired a PSC to focus on travel and tourism, as it would any other important
sector.2 The decision to have one staff member spend about 75 percent of her time on travel and
tourism, management believes, is justified because the United States is a top destination for
German tourists and Germans are among the world’s biggest spenders on tourism.

Germany is, in fact, the fifth largest generator of visitors to the United States, with 1.8 million
arrivals in 1995, and fourth in travel exports for the United States, generating $5.5 billion for the
U.S. travel and tourism industry. The United States benefited from a $2.1 billion travel surplus
with Germany in 1995. Without the travel surplus, the 1995 U.S. trade deficit with Germany
would have been $16.6 billion, instead of $14.5 billion. Therefore, we agree with US&FCS



        2
          Until 1996, USTTA operated nine regional field offices, including one office in Germany. USTTA
employed six full-time staff in Germany. The Congress allowed for funds to integrate five officers, worldwide, into
the US&FCS overseas offices. Germany was selected for one of these slots. However, the USTTA employee who
was scheduled to take the position unexpectedly retired. ITA’s newly created Office of Tourism Industries now is
responsible for fostering tourism trade development.

                                                        11
U.S. Department of Commerce                                                      Final Report IPE-9287
Office of Inspector General                                                                   July 1997



Germany’s decision to give travel and tourism a prominent industry focus, treating it as a
traditional industry important to export expansion and creation.

The “Visit USA Committee” in Germany is located in Frankfurt and is dedicated to promoting the
United States as a destination for German tourists. By encouraging German tourists to travel to
the United States, the committee may lead to additional U.S. travel and tourism, thereby
increasing U.S. employment and a reduced trade deficit. Members of the committee include U.S.
state representatives, airline and hotel representatives, and tour operators. The committee was
originally formed by USTTA. Before his departure, the Frankfurt PCO was the vice chairman of
the committee. However, the post’s relationship with this critical tourism committee is not good,
due to the poor working relationship between the former PCO and the committee.

The lack of cooperation may have resulted in fewer events where the United States was promoted
and fewer opportunities for the PCO and the PSC covering travel and tourism to consolidate
critical working relationships with the German travel industry. The deputy SCO in Germany
recognized that there was a problem in this area and, since our field work, has visited Frankfurt
and made efforts to improve the relationship. We encourage further efforts to build better
relations with the committee.


US&FCS concurred with our recommendation that the Frankfurt constituent post should
reestablish an effective working relationship with the German Visit USA Committee to better
promote U.S. travel and tourism. We endorse recent efforts made since our visit to promote a
more productive relationship.


E.     Performance Measurements Needed

US&FCS Germany does not perform adequate follow-up on its products and services in order to
measure the impact of its operations and its effectiveness in serving the American business
community. An effective analysis of quantitative and qualitative data should result in a more
informed view of program effectiveness. Without this information, the post cannot determine: (1)
the relative importance and impact of its products and services, (2) whether to modify, add, or
delete products and services, or (3) the appropriate amount of resources to devote to its programs
or to the post overall. Without such analyses, coupled with the lack of a time management
system, it is virtually impossible for the post to effectively plan its work and have a sound basis on
which to adjust its activities and resources.

There is neither a requirement nor a specific mechanism to obtain feedback on post services, such
as business counseling, trade event support, Gold Key service, or trade missions. There are also


                                                 12
U.S. Department of Commerce                                                         Final Report IPE-9287
Office of Inspector General                                                                      July 1997



no systematic feedback mechanisms for products such as IMIs, ISAs, Trade Opportunity Program
(TOPs), or Agent/Distributor Service (ADS). Trade specialists indicated that feedback from
US&FCS clients is usually initiated by the clients, is sporadic, and depends upon the specialist’s
initiative.

A headquarters unit, Export Promotion Services (EPS), collects some product feedback, but we
have concerns with this approach. We believe the techniques/tools used by EPS do not accurately
capture appropriate feedback on a post’s performance. We were told that performance was
measured by reporting requirements in the post’s quarterly report. It is, however, clear that the
quarterly reports are primarily focused on numbers of products, services, or export actions.
Merely reporting the quantity of IMIs produced, or Gold Keys rendered, ADSs completed or
businesses counseled tells neither Bonn nor headquarters management about the quality of work
produced or its impact on U.S. business interests in Germany. We previously reported that
US&FCS needs to revise and improve its reporting of performance and follow-up with clients.3

In addition, we believe EPS quality assurance surveys are inadequate for post needs. EPS
managers said that their surveys captured only a small fraction of the clients and customers of
US&FCS, were statistically invalid (and therefore not reliable enough to project the results to all
posts worldwide), and had an extremely low response rate. For example, we were told that in a
recent survey of 150 TOPs clients, only 13 responded (8.7 percent). Furthermore, officials
indicated that because the response rates were so low, there was no country-specific reporting on
any products and services, let alone responses that would provide data for each constituent post.

In a time of resource constraints worldwide, US&FCS Germany cannot determine whether it has
the appropriate amount of resources or the right mix of programs, products, and services in the
absence of reliable and consistent feedback from its clients. Without this information, changes in
resource and program mixes are made without regard to reliable quantitative data. We believe it
is important for US&FCS Germany and headquarters to work together to determine how to
improve performance measurement and feedback on US&FCS Germany’s services and product
effectiveness.


US&FCS agreed with our recommendation that it develop meaningful performance measures for
all major post activities, services, and products. In its response, US&FCS points out that the need
to develop such measures is an US&FCS-wide problem. We agree, and will make several other
observations about this issue in a soon to be issued report entitled Recent Overseas Inspections
Found US&FCS Delivering Services Effectively But Facing Internal Constraints (IPE-9178).


        3
         US&FCS Posts in Canada (IPE-7875), Office of Inspector General, U.S. Department of Commerce,
February 1996.

                                                   13
U.S. Department of Commerce                                                      Final Report IPE-9287
Office of Inspector General                                                                   July 1997



F.     Trade Fair and International Buyer Program Participation Need Reassessment

US&FCS Germany trade fair activity is heavy, and many believe some of this activity could be
curtailed without harm to U.S. exports. In FY 1996, US&FCS Germany participated in about 50
trade fairs. Many of the trade fairs are the top industry event of their kind, attracting thousands of
worldwide exhibitors and hundreds of thousands of visitors. At some events, export deals are
made on the trade fair floor, while at others, most sales occur after the event. US&FCS Germany
assists U.S. firms at trade fairs by: (1) attracting U.S. companies to participate; (2) obtaining
exhibition space in better locations and/or at rates under that which an individual company could
obtain; (3) arranging meetings between U.S. exhibitors and potential buyers; and (4) providing a
variety of business services including translators.

Most of the top trade fairs have privatized U.S. recruitment. This means that a U.S. trade show
promotion company solicits U.S. firms to participate in a given trade fair. For many of these
events, some American officers and FSNs—while highly supportive of US&FCS Germany trade
show efforts overall—question the added value of US&FCS participation. In particular, they
question whether US&FCS needs to assist firms that have attended the event before, or are well
established in the German market. Other trade shows where US&FCS Germany participation
could be curtailed are small events where export sales resulting from US&FCS input are likely to
be quite small and without good prospects for substantial improvement. US&FCS Germany
management indicated that they will be evaluating the usefulness of each trade fair and resources
devoted to them. We believe that a review is timely and necessary, particularly as headquarters
and the post are considering long-term staffing plans for this post. (See page 19.)

We also question the usefulness of the effort and funds expended toward International Buyer
Program (IBP) events (formerly known as the Foreign Buyer Program). The IBP attempts to
increase U.S. exports by bringing buyers, prospective representatives, and distributors from
abroad to important U.S. trade shows. US&FCS Germany could provide no data to demonstrate
the impact relative to the cost of the IBPs, although noting that many are conducted every year
(11 in FY 1996). A number of US&FCS Germany’s American officers and foreign staff, present
and former, questioned the usefulness of the program and its relative impact as compared to the
cost of travel and loss of staff time when staff are accompanying foreign delegations to U.S.
shows. We believe that the level of resources devoted to this activity and the impact of these
shows need to be carefully analyzed by US&FCS Germany as part of an overall reassessment of
its resource allocation.


US&FCS concurred with our recommendation that US&FCS Germany reassess the level of
participation in trade fairs and International Buyer Program activities.



                                                 14
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



G.     Technical Support and Training Inadequate

US&FCS Germany is moving to upgrade its information technology capabilities, but its
operations are plagued by a poor infrastructure and a lack of adequate support from headquarters.
Furthermore, its Internet site could be used more effectively to support its operations. The post’s
problems have included some personal computers that are incompatible with Windows software, a
lack of adequate system hardware and software support, inadequate telecommunications, and lack
of confidence in or use of the Commerce Information Management System (CIMS). Many of
these problems occurred after headquarters eliminated Regional Area Coordinators (RACs), who
were responsible for providing information technology support to the overseas posts. We were
shown dozens of examples of unanswered E-mail requests for help on computer-related problems
sent by the post to US&FCS headquarters. The locally designated System Administrators (FSNs
who are already trade specialists) admittedly did not have the background, training, and time to
adequately support information technology operations.

1.     Information Systems

Post management is moving to address a number of problems in the telecommunications area and
upgrading system capabilities. Several PCOs have arranged for local support, and the SCO is
considering obtaining a Germany-wide support contractor to deal with systems issues and to
perhaps replace local contractors. US&FCS Germany acted properly to regain critical technical
assistance capabilities lost due to elimination of the RACs. Unfortunately, US&FCS Germany,
including all constituent sites we visited, is still hampered by the loss of the RACs.

Two issues have not been resolved. First, CIMS use is still required locally, even though it is not
considered useful for post operations by either US&FCS Germany or US&FCS headquarters.
FSNs, PSCs, American officers, and headquarters officials agreed that the system has no practical
use to the foreign posts. We were told that CIMS was used almost exclusively by US&FCS
domestic offices, who maintain client/industry lists on the system. There is a question of whether
CIMS should still be supported at this site (and presumably other US&FCS sites worldwide),
given that there is no demonstrable need or use for this system.

Second, it is unclear whether the local computer support contracts are cost-efficient, or will be
able to address each office’s needs. At the time of our review, US&FCS headquarters was
developing a US&FCS-wide policy on information technology support—defining what
headquarters will provide and what sites will be expected to provide for themselves. This is a
radical departure from the past when most support was provided by headquarters directly or
through its RACs. Resolving the question of what support, if any, headquarters will provide to its
posts will determine what type of support should be obtained by US&FCS Germany to address
the information technology needs of its offices.


                                                15
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



2.     Internet Activities

We were impressed that US&FCS Germany has taken steps toward constructing an Internet-
based website in order to promote its operations.4 We were told that the website, commonly
referred to as the Berlin homepage, was being developed in the Berlin office and would eventually
evolve into a US&FCS Germany-wide website. Although the homepage and the website are
potential assets in export promotion, they need immediate support. For example, the homepage
was out of date when we visited the office (and, in March 1997, was still out date and had not
been updated since September 1996), and lacked many needed features to make it more useful
and effective. We are concerned that no staff member in the Berlin office is assigned to upgrading
the website, since the PSC who was developing it resigned and US&FCS headquarters did not
approve rehiring for that position. There is no other staff member proficient in maintaining or
expanding a website.

The homepage could effectively promote US&FCS Germany’s services, products, and trade
events and link to other ITA units, multiplier organizations, and district office sites. For example,
the homepage could promote a trade show on the site and provide links to other ITA and non-
ITA websites. The homepage requires regular maintenance to provide customers with complete
and timely information; indeed, an out-of-date website can have the opposite effect of what is
intended— driving away potential clients. Resources should be devoted if post management
intends to make it a viable, up-to-date trade promotion tool.

3.     Technical Support and Training

Given the wide ranging locations and increasing needs of US&FCS Germany, management needs
to make technical support a higher priority. Many of the problems that US&FCS Germany faces
with its information technology support are indicative of imprudent US&FCS decisions. Support
for this function was decentralized by headquarters without adequate support or guidance to posts
on how to address their ongoing and increasing technical needs. Fortunately, Germany has
available sources of local support that many expanding or emerging markets do not have.
However, the support problems that we observed in Germany were substantial and harmful to its
operations. We are commenting on this issue more broadly in a report on issues common to
US&FCS posts worldwide that will be released shortly after this report.

Professional development and software training needs for all the posts in Germany are also
significant. For example, some sites have poor E-mail capability and many staff members lack
adequate software and market research skills. One FSN reported no training of any kind for more



       4
           http://www.berlin-bear.de/Gov/USA/US&FCS/Index.htm

                                                  16
U.S. Department of Commerce                                                      Final Report IPE-9287
Office of Inspector General                                                                   July 1997



than 10 years. Regardless of the skill level of an individual employee, it would appear prudent to
require minimal training so that staff members can keep their computer and research skills current.

Long term gains in productivity often result from staff receiving timely training. For example,
software training makes staff more efficient, improves communication with headquarters,
improves morale, and gives post staff more time to promote U.S. exports. Trained staff will be
less busy with software-related work, such as E-mail and word processing, and can therefore
focus more on direct assistance and post priorities. Other training needs identified by US&FCS
Germany include the Internet, administrative, budget and finance, and commercial specialist
training in the five priority sectors of Showcase Europe. We are pleased that regional
management has set a goal to focus attention on training to help officers and FSNs do their jobs
more effectively and efficiently. We believe that post management and headquarters need to
immediately coordinate software training with other European posts to take advantage of reduced
costs or other efficiencies created by joint efforts.



US&FCS concurred with our recommendation that it make provisions for training needs. We find
it encouraging that US&FCS Germany management recognizes the need for improved training
and that computer training has been included in the Bonn local computer maintenance contract.
In its response, US&FCS also notes that another positive step to be taken by US&FCS Germany
is the preparation of training plans for all staff and managers.

US&FCS also concurred with our recommendation that US&FCS Germany devote more
resources to maintaining its Internet site. As US&FCS points out in its response, US&FCS has
recently made efforts to improve the US&FCS Germany website and the Showcase Europe
website. Despite maintaining a Showcase Europe site, US&FCS Germany should ensure that its
own homepage is kept up to date, contains appropriate links, and remains useful.


H.     BXA Guidance Is Not Being Followed

The Department's Bureau of Export Administration relies on the US&FCS posts to assist in
fulfilling its export licensing and control responsibilities. Specifically, BXA requests the posts to
perform Pre-License Checks (PLCs) and Post-Shipment Verifications (PSVs) to verify the
legitimacy of certain export transactions and provide vital information to help BXA make
decisions on specific export license applications.

BXA issued new guidance for conducting end-use checks in March 1995 and published a revised
handbook, How To Conduct Pre-License Checks and Post-Shipment Verifications, in March
1996. The new guidance and handbook established more stringent criteria for conducting end-

                                                  17
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



use checks, such as conducting the checks in person, and greatly restricting the circumstances in
which such checks can be carried out by FSNs. For example, the handbook states that FSNs are
not to conduct end-use checks except in extremely limited circumstances and only with advance
BXA approval.

In Germany, US&FCS is not authorized to perform PSVs. For these checks, BXA sends its
requests to the U.S. Customs Attache in Bonn, and the request is then forwarded to German
Customs. Generally, a U.S. Customs agent is allowed to accompany the German Customs
officials on a PSV. BXA did not have any problems with Customs’ handling these checks and the
information it reported.

However, a review of the PLC records in Germany indicated that these checks were not being
conducted according to BXA's guidance. Specifically, FSNs conducted all of the six PLCs
conducted in FY 1995 and 1996. US&FCS Germany officials told us they had never received a
copy of the March 1996 handbook and were unaware of the policy not to use FSNs without
permission from BXA. We informed them that they should stop using FSNs until they sought a
waiver from BXA. BXA officials were unaware that FSNs were conducting these checks and
informed us that although they were generally satisfied with the information from the checks,
US&FCS Germany must seek a waiver in order to have FSNs conduct the checks.

Despite US&FCS Germany's non-compliance with this part of BXA's guidance, our review of the
post's files revealed that the requests for these services were conducted in person and the requests
were responded to in a timely manner. In addition, there appeared to be an adequate amount of
information-gathering for the checks. The files often contained correspondence with the subject
company or organization and copies of documentation of the transaction at issue. In addition,
other agencies within the embassy, such as Customs and the State Department’s Economic
Section, were consulted on every check.


In responding to our draft report, US&FCS generally agreed with our recommendation that,
where appropriate, US&FCS Germany seek a waiver from BXA to allow FSNs to conduct Pre-
License checks, and, in the interim, have American officers conduct pending checks. However,
we caution the post to only use American officers during the interim period. BXA officials stated
that PSCs, regardless of their citizenship or security clearance, should not perform end-use
checks.




                                                18
U.S. Department of Commerce                                                       Final Report IPE-9287
Office of Inspector General                                                                    July 1997



II.     STAFFING

US&FCS can no longer afford to delay critical staffing decisions on Germany. While head-
quarters maintains that resources should be reduced in Germany and redistributed elsewhere, the
long-term planning process for rational redistribution of staff has been hampered by a lack of
cooperation between headquarters and US&FCS Germany. It took US&FCS Germany more than
a year after a headquarters request for a staffing plan to respond with a draft plan. We believe
that the post’s plan, transmitted to headquarters in December 1996, is a positive first step and a
basis from which to begin serious deliberation on the current and long-term needs for resources in
Germany.

However, while we agree with elements of the draft restructuring plan that call for more effective
distribution of existing staff and elimination of the Leipzig satellite office, the plan is, generally,
inadequate because (1) it may not meet the expressed desire of US&FCS headquarters for
reductions in staff, and (2) it does not adequately justify proposed staffing changes.

A.      Planning and Staffing Delayed by Poor Cooperation and Leadership

Key planning and staffing decisions have been stymied by poor cooperation between US&FCS
Germany and the regional manager for Europe, resulting in delays in implementing the appropriate
level of resources for Germany in both the near- and long-term. A major reason for the lack of
cooperation is that US&FCS management would like Germany to reduce what it believes are
excessive resources, while US&FCS Germany is reluctant to draft a plan containing significant
reductions in staff that the SCO thinks it needs.

We believe that a near- and long-term plan for US&FCS Germany staffing is critical, especially
due to the impending move to Berlin, the large number of PCO vacancies, and the uncertain
staffing status of the Hamburg constituent post. Because of German law, it is difficult to quickly
remove employees from service. Therefore, it is more imperative that reductions be handled with
a long-term view so that attrition can be used to meet any necessary reductions. US&FCS
management and US&FCS Germany need to agree as soon as possible on staffing targets and
transfers of positions between offices.

Unfortunately, headquarters and US&FCS Germany remain at an impasse on the staffing plan.
Communication between regional management and the SCO on the need for a near- and long-
term staffing plan resulted in little progress until recently. Regional management has not made
decisions on staffing, preferring to first receive a plan from US&FCS Germany. The move to
Berlin and government emphasis on restructuring were well known when headquarters first
requested a restructuring plan from the post in 1995. In December 1996, after more than a year
of delay, the SCO and his deputy submitted a staffing and deployment plan to US&FCS
headquarters. US&FCS management shared many of our concerns about the plan’s inadequacies.

                                                  19
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



However, US&FCS management has not established a date for a reconstituted staffing plan based
upon the regional manager’s visit and discussions concerning the need for staffing reductions and
redistribution with the SCO in January 1997. As we note in the following section, while aspects
of the plan are useful, a number of problems require resolution between the post and
headquarters.

B.     Draft Staffing Plan, While a Good Start, Is Inadequate

We agree with several elements of US&FCS Germany’s draft staffing plan, particularly the need
to redistribute the staff among offices in Germany and to close the Leipzig satellite office. We
also agree with the draft plan’s statement that some posts in Germany need more staff and others
less. As we discuss below, the Bonn-Berlin merger necessitates a major reconsideration of
resource distribution Germany-wide. We also note that the plan proposes adding resources to the
Frankfurt office due to an increasing workload.

We agree with US&FCS post and headquarters management that maintaining the Leipzig office is
not justified, even though the staff there is competent. The office is currently staffed by two
FSNs, who mostly counsel local firms. Few success stories or export actions were reported by
the post, and the primary industry covered by the office (publishing) holds its main trade show in
Frankfurt. We were told by US&FCS Germany management that the State Department is also
questioning the efficacy of maintaining the consulate in this city. We were also told that without
on-site supervision, the US&FCS staff is often “dragged” into doing work for the State
Department that is unrelated to the promotion of U.S. exports.

However, we believe that the plan, while a good basis for discussions about resources, has two
primary flaws that must be addressed.


1.     Overall Staffing Level Does Not Meet Headquarters’ Desire for a Real Reduction

The draft staffing plan shuffles a number of positions between offices, but does not propose any
significant reductions after the Bonn-Berlin merger. Many of the reductions proposed are in
vacant positions that were not likely to be filled in the current environment. Positions abolished in
Leipzig merely transfer to Berlin to take the place of two administrative positions that would be
eliminated. Moreover, the proposed cuts are modest, resulting in an overall staffing cut of about
5 percent, at most. This does not meet the intent of US&FCS headquarters, which believes that
resources in Germany are excessive and need to be significantly reduced.

In fact, pending a review of staffing in Hamburg, the plan may end up with no reduction of staff in
Germany at all. In Hamburg, there are currently two staff but no American officers. This staffing
level may not be optimum, given that two staff may not constitute a critical mass for success in

                                                 20
U.S. Department of Commerce                                                        Final Report IPE-9287
Office of Inspector General                                                                     July 1997



Hamburg. The SCO favored eliminating the Hamburg office. Now, however, the draft plan
recommends monitoring US&FCS Hamburg for 12 to 18 months before making a final
recommendation. It’s possible that, according to the plan, resources could be proposed to be
added to the constituent post as a result of this review.

The Bonn-Berlin merger should make it possible to eliminate several administrative positions held
by FSNs and PSCs due to efficiencies gained there. However, the plan does not identify cuts that
can be made in the near future, before the consolidation of Bonn and Berlin, and the elimination of
the Leipzig post. This aspect of the plan in particular does not meet the expressed desire of
US&FCS headquarters to make reductions in the near-term in resources for Germany.

2.      Plan Does Not Adequately Justify Proposed Staff Changes

The proposed staffing plan did not provide adequate information to justify many proposals to
move, reduce, or even add resources to various locations. Without this information, it is not
possible to determine whether the proposed staffing levels overall and in any particular office are
optimum and necessary. We found a number of aspects of this plan puzzling and inadequately
explained.

For example, when the move occurs, the draft plan proposes eliminating the Berlin deputy
position while creating a new “swing position.” This slot would be used in a three-way
capacity—for Frankfurt responsibilities, special projects, and back-up as needed for temporary
vacancies. The draft plan does not adequately explain why the Berlin deputy PCO slot needs to
remain until the capital moves to Berlin. We believe that the recently assigned (February 1997)
Berlin deputy should be considered for a PCO assignment elsewhere in Germany. We noted that
the Berlin post operated well without a deputy. (See page 28.) The draft plan notes that
US&FCS Düsseldorf and Frankfurt are extremely busy and that Hamburg has no American
officer, but does not discuss the obvious possibility of switching the Berlin deputy PCO
permanently to one of these posts.

In another case, the transfer of a trade specialist position from Bonn to Frankfurt is proposed, but
not until the relocation of the chief post to Berlin. If the need is solid for the Frankfurt position, a
transfer sooner than the move to Berlin appears to be called for. Waiting for the German
government to complete the move of its capital may not be prudent because this will not take
place for at least two years, and perhaps as long as five.


US&FCS concurred with our recommendation that a detailed Germany staffing plan should be
implemented. However, we are concerned that US&FCS headquarters has not established a firm
time frame for implementation. As noted in this section of the report, the lack of resolve by


                                                  21
U.S. Department of Commerce                                                   Final Report IPE-9287
Office of Inspector General                                                                July 1997



US&FCS headquarters contributed to the harmful delays in production of a Germany staffing
plan. Therefore, we emphasize the need for headquarters to establish a six-month time frame for
implementation of the staffing plan.


III.   POST MANAGEMENT

The US&FCS Germany staff, including the SCO, has put great effort into promoting U.S.
exports to Germany. However the SCO spends much of his time on some policy issues and travel
and therefore has too little time for administrative activities. Bonn management also needs to
improve its interaction with constituent posts, and cooperate and coordinate more effectively with
US&FCS headquarters and other agencies, including the United States Information Service. In
addition, US&FCS Germany needs to stay involved in managing the new interagency
administrative costs system. One month before our inspection, the US&FCS Germany deputy
commercial officer left the post to begin work with US&FCS Venezuela. The incoming deputy
began her duties at post only two weeks before our arrival in Germany. Therefore, while we
interviewed both the former and current deputy, and have comments on their performance, we did
not extensively review the activities of either deputy. The PCOs’ management of the constituent
posts is reviewed in Section IV of this report. (See page 28.)

A.     Post Management Dedicated

The SCO is extremely knowledgeable about trade policy and issues. He is dedicated and
competent, devoting a great deal of time to the position. He has shown himself to be effective in
outreach to the business community. In addition, he has established strong working relationships
with German government officials, and has emphasized the need for dedication and innovation by
his staff. He has also provided each constituent post with a separate, and largely adequate,
budget.

The deputy quickly assimilated to her new assignment in Germany in September 1996, is
knowledgeable of her duties, and was already contributing significantly to the operation when we
were there during our field work. Most staff in Bonn and the constituent posts are complimentary
of both the deputy and the SCO, and praise the SCO for his energy, enthusiasm, intelligence, and
knowledge in many areas.

The staff in Bonn manages US&FCS Germany’s policy, advocacy, and promotion efforts,
manages the constituent post staff, and performs many administrative functions, but performs little
industry-related work. The staff in Bonn is currently 10—3 officers, 4 FSNs, and 3 PSCs. This is
more than 25 percent of the Germany staff. The officers and staff are generally knowledgeable
and often take the initiative and address issues in an innovative manner. For example, US&FCS
Bonn staff have been instrumental in developing the Showcase Europe initiative.

                                                22
U.S. Department of Commerce                                                   Final Report IPE-9287
Office of Inspector General                                                                July 1997



Staff throughout Germany, but particularly in Bonn, often work many hours beyond required
amounts. Morale of the American officers is fair, while FSN and PSC morale varies considerably
by individual and post.

The FSNs are experienced, knowledgeable, and hard-working. They smoothly handle the large
volume of administrative duties required in Bonn, including the critical, time-consuming work
through the State Administrative Section. In addition, several FSNs also effectively carry out
industry sector responsibilities.

B.     SCO Priorities and Management Style Have Negatively Affected Post Management
       and Operations

While the SCO is aggressive and innovative, some of his priorities need reassessment. Some
adjustment is also needed in his occasionally heavy-handed approach to management. That style
negatively affected personnel and aggravated a morale problem in Germany. In addition to
traditional activities and initiatives, the SCO spends much of his time on policy matters, such as
advocacy, regulatory issues, and trade barriers. These issues sometimes require travel within and
outside of Germany. The SCO delegates many tasks he could accomplish himself in order to
travel and attend meetings on these policy issues. While the pursuit of these issues is generally
within the role of the SCO, the trade-offs associated with overemphasizing them can have a
negative impact on Germany’s operations.

One trade-off is that the remaining American officers do some work that could be better
accomplished by the SCO himself. For example, much of the US&FCS Germany draft staffing
plan was written by the deputy commercial officer. While the deputy is competent, she had been
in Germany only for 3 months when assigned the task, whereas the SCO has served in Germany
since 1992. Another trade-off is that the American officers spend less time on supervising staff
and more time filling in for the SCO at high level meetings with the Ambassador, German
government officials, and high level business leaders, and communicating with staff at constituent
posts.

Furthermore, the SCO’s confrontational style on some issues and his tolerance for his former
deputy’s handling of several problems in a heavy-handed manner negatively affected operations
and the morale of staff throughout Germany. The former deputy SCO frequently handled
problems with the PCOs in Munich and elsewhere. Several of his E-mails could easily be
construed as inappropriately berating the employee recipients. In another case, the SCO officially
reprimanded a PCO for a minor travel voucher irregularity—a very harsh administrative action for
a minor infraction. In another case, the SCO attempted to enforce an incorrect interpretation of a
compensatory leave policy, leading to morale problems for at least one staff member. After our
intervention, headquarters corrected the situation by notifying the SCO of the correct
interpretation of the policy and directing him to comply.

                                                23
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



Such actions contributed to the mediocre morale of US&FCS Germany American officers and
other staff. While many staff expressed a satisfaction and enjoyment in their jobs, the furloughs in
1995-96 and difficulties with Bonn management hurt staff morale. We believe the SCO should
work with the current deputy SCO to establish stronger and more effective communication with
their staff. This can be accomplished, in part, by increasing their personal contact with staff and
using more businesslike language when communicating in writing with staff on personnel and
other sensitive issues.


C.     Uneven Relationships with Other Agencies in Germany

US&FCS Germany has productive relationships with several U.S. government agencies, but not
with others. In particular, US&FCS Germany’s relationship with the United States Information
Service (USIS) needs improvement. Until very recently, USIS and US&FCS did not interact
frequently or productively in Berlin and Frankfurt. The relationship has improved in Berlin with
the changeover in top positions at both US&FCS and USIS in that city, while in Frankfurt the
deputy SCO from Bonn has begun improving this critical relationship.

However, because the SCO has not worked to maintain a good relationship with USIS, US&FCS
Germany and USIS do not cooperate well on substantive issues, reducing the impact US&FCS
might have on exports. Tensions between the agencies have arisen because their missions are
similar in several respects, leading to turf disputes. As a result, cooperation has suffered. For
example, US&FCS Frankfurt no longer takes full advantage of meeting space, joint efforts, and
the trade information located at the USIS center, thereby wasting resources and opportunities for
leveraging. However, cooperation between the agencies should help U.S. exports, because USIS
and US&FCS share an interest in improving U.S. business contacts in Germany and making trade
information available to a variety of individuals and groups.

In addition, US&FCS may be able to save money and increase efficiency by collocating with USIS
in Frankfurt and/or Berlin. USIS is undergoing budget cuts that provide an opportunity for
collocation and increased cooperation. USIS space in both Frankfurt and Berlin may be able to
accommodate US&FCS staff more economically than the current US&FCS locations. In Berlin,
US&FCS must find new space once the embassy transfer is made, but US&FCS has not pursued
collocation with USIS, which occupies a well-located and underused facility. (See page 30.) In
Frankfurt, US&FCS may be able to save money on lease expenses and improve its location by
collocating with USIS. (See page 38.)

We also noted that US&FCS has an unproductive and overly competitive relationship with the
Department of State’s economics section. While we know that there are often strained
relationships between economics and commercial sections at many posts worldwide, we noted
that the relationship in Bonn was made worse by the personalities of the principals involved.

                                                24
U.S. Department of Commerce                                                                 Final Report IPE-9287
Office of Inspector General                                                                              July 1997



On the other hand, US&FCS Germany has strong or improving relationships with other U.S.
government agencies, including the Department of State’s administrative section at the embassy.
For example, the State Department’s administrative officer in Bonn stated that US&FCS
Germany works cooperatively with him to resolve problems. We noted no other problems with
other agencies in our interviews.


D.      Mixed Relationships with Other US&FCS Elements

The SCO and the previous deputy SCO had poor working relationships with the regional manager
for Europe, their primary contact point with US&FCS headquarters. Interviews and reviews of
communications between the post and headquarters reveal that disagreements were common,
ranging from disputes over personnel issues to large issues such as the restructuring plan. We
have already noted that in 1995, after regional management began a determined effort to see that
US&FCS Germany produced a restructuring plan, the relationship, which had at least been polite,
became unproductive. However, it is encouraging to note that the new deputy SCO has a
stronger relationship with regional management than her predecessor.

US&FCS Germany does have strong or improving relationships with US&FCS domestic offices.
Relations appeared to be improving, due to the increased use of E-mail and implementation of the
“Team Initiative.”5 The US&FCS domestic network has established several teams of trade
specialists from ITA offices throughout the United States who share particular interest and/or
expertise in a region of the world or industry sector. These specialized networks of domestic
office trade specialists can be an effective stateside resource to assist US&FCS Germany in
several of its activities, such as the International Buyer Program.


E.      ICASS Requires Greater SCO Involvement

The SCO needs to plan for the imminent implementation of the State Department’s new
mechanism for sharing administrative costs for support of U.S. government overseas operations.
The new system, International Cooperative Administrative Support Services (ICASS), replaces
FAAS (Foreign Affairs Administrative Support) and is intended to capture the full costs of all
administrative support services and spread them equitably among the overseas agencies. The
bottom line for US&FCS Germany, as well as other US&FCS posts, is a huge increase in costs,
estimated at over 50 percent. The State Department estimated ICASS charges for US&FCS


        5
          The Team Initiative was designed by US&FCS to be a vehicle for leveraging country and industry
expertise within the domestic offices, the worldwide posts, and headquarters and integrating these resources for the
benefit of particular initiatives or U.S. exporters.

                                                        25
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



Germany for FY 1997 will be $1.1 million compared to $730,000 in FY 1996. Worldwide
US&FCS administrative cost support charges were estimated to increase from about $11 million
to over $17 million.

A major responsibility of the SCO is managing costs at the post. After personnel, administrative
costs are the largest budget item for US&FCS Germany. Most of the anticipated cost increase
will occur because the State Department will no longer be subsidizing the support services that it
provides to the various agencies at post, such as local guard services and certain building
maintenance and leasing charges. While we recognize that the SCO took ICASS training after
our visit and has been able to reduce some administrative charges, we believe that he needs to
become more actively involved in ICASS to help minimize its impact on Germany’s operations.

The SCO is the US&FCS representative on the Germany ICASS Council, a group composed of
the Ambassador and the heads of U.S. agencies in Germany. The council has the authority to
determine which administrative services will be provided, by whom, and at what level. The
council will also define specific service standards of performance, and monitor service
performance and cost and require changes, if necessary.

If even a small fraction of the additional ICASS charges (estimated additional charges are
$381,000) can be saved, it will result in significant savings for US&FCS Germany. Adjusting to
ICASS will require the use of the skilled FSNs and a strong effort by the American officers,
including the SCO. Through staff research and other activities, and a strong role on the ICASS
Council, US&FCS Germany can fully explore possibilities for savings and efficiencies when
ICASS is fully implemented in FY 1998. It is well worth the SCO’s effort to spend more time on
this critical administrative task, especially as the new system is put in place and opportunities for
efficiencies and cost savings are identified. For example, the SCO may wish to become
knowledgeable about service providers for voucher processing and building and vehicle leasing
services that may provide efficient and effective alternatives to the State Department. In addition,
the SCO can work on identifying services that US&FCS Germany does not need, or needs less of.


In its response to our recommendation that the SCO increase his involvement with ICASS,
US&FCS states that the deputy SCO is the lead officer on administrative matters, including
ICASS. While this is an acceptable delegation of authority, we believe that because ICASS costs
are so large and because the ICASS council is structured to include the head of each participating
agency, the SCO should make ICASS a high priority and ensure he is personally knowledgeable
of and active in ICASS issues.




                                                 26
U.S. Department of Commerce                                                Final Report IPE-9287
Office of Inspector General                                                             July 1997



F.     Large Influx of PSCs Helps Operations but Has Disadvantages

In the last five years, US&FCS Germany was forced to greatly increase its PSC staff to maintain
operations. (See Exhibit 2.) However, PSC hiring presents significant liabilities. The large
increase in PSC hiring has been necessary to maintain staffing levels, due to an ITA worldwide
Full Time Equivalent (FTE) hiring freeze. Since PSCs do not count against FTE limits, they have
been extensively used as a stopgap measure when FTEs were not available. They are now an
integral part of the US&FCS Germany operations, accounting for 12 of the 46 staff. PSCs in
Germany perform program and administrative work that is generally very similar to the work done
by their FSN counterparts. Many of the PSCs are critical to successful operation of their
US&FCS offices.

PSCs offer several advantages and disadvantages as compared to FSNs. PSCs in Germany cost
less in wages and benefits than FSNs. PSCs are 30 percent of its non-American officer
employees, but cost less than 20 percent of US&FCS Germany’s non-American officer
employees’ wages and benefits. Also, the size of the workforce is more flexible with PSCs,
because contracts can be terminated more easily than permanent staff. However, in Germany,
PSCs are often doing the same work as FSNs, but at less pay, creating pay inequities and
resentment, which was apparent at two posts we visited. In Germany, many of the PSCs we
interviewed were concerned about job security, which contributed greatly to several PSC
resignations in 1996. Exhibit 2 shows the huge increase in recent US&FCS Germany PSC
staffing.




                                              27
U.S. Department of Commerce                                                      Final Report IPE-9287
Office of Inspector General                                                                   July 1997



The post and US&FCS management stated they would like to replace some of the PSCs with
FSNs but know that severe FTE limitations will make such conversions difficult. Gradually
replacing some PSCs with FSNs, if hiring limitations are lifted in the future, will likely improve
organizational stability, and increase long-term organizational memory, industry expertise, and
productivity. We were told that US&FCS may soon receive additional FTE hiring authority. In
this case, US&FCS should consider not renewing some US&FCS Germany PSCs and replacing
these positions with FSNs.


IV.    CONSTITUENT POSTS

In the following sections, we discuss the results of our reviews of the US&FCS Germany
constituent posts we visited.

A.     BERLIN

Berlin is the cultural and soon to be political center of Germany. The US&FCS Berlin office is
responsible for covering trade promotion activities in the states of Berlin, Brandenburg, Sachsen-
Anhalt, Sachsen, Thuringia, and Mecklenburg-Vorpommern—areas that include 15.4 million
people. US&FCS Berlin is responsible for covering certain industries, including engineering
services, construction equipment, and building products, for all of Germany. The Berlin office is
located just inside of the former East Berlin. A satellite office supervised by Berlin, and staffed by
two PSCs, is maintained in the city of Leipzig, about 100 miles from Berlin.

The Berlin office is staffed by an American PCO, three full-time FSN trade specialists, one part-
time secretary, and, at the time of our field work, four PSCs (one of whom was part-time). In
addition, there was one student intern working in the office. The deputy position was vacant
during our inspection and filled in February 1997. Berlin management did not believe that a
deputy was needed in the office more than another trade specialist. The Berlin operation
appeared to be operating well without a deputy. US&FCS headquarters management stated that
the new deputy was not yet ready for assignment to head any of the constituent posts elsewhere in
Germany, but may later be considered for a PCO slot.

The Berlin staff appeared to be professional, well-motivated, and knowledgeable about their
industries and work. It appeared that the post had sufficient resources to carry out its export
promotion activities.

Berlin recently saw a change in its leadership as both the PCO and deputy left for other
assignments. We noted that the new management is taking positive steps to address pressing



                                                  28
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



problems, particularly in the area of embassy relations, multiplier relations (such as with the local
American Chamber of Commerce), morale issues, and various information technology issues. For
the office in general, we have the following observations:

Berlin’s Low Morale Caused by Many Factors

While we found the staff to be highly motivated and competent, there was a lingering morale
problem affecting Berlin’s operations. We were told that this problem was caused by (1) the
effects of the FY 1996 furloughs, (2) layoffs, (3) pay inequities between PSCs and FSNs and
among PSCs, (4) out-of-date job descriptions, (5) a recent change in management, and
(6) general uncertainty over job security.

The job insecurity concerns caused by the federal government furloughs in FY 1996 had strongly
negative effects in Germany. A furlough, with no certainty of back pay, was shocking and almost
unthinkable to US&FCS’ German employees, because Germany has labor laws that make these
sort of circumstances virtually nonexistent. Furthermore, the furlough resulted in some PSCs
being let go temporarily due to lack of funds, with some being brought back. In January 1996,
two part-time PSCs were dismissed, due to lack of event from which these PSCs were funded.
Although the two PSCs were brought back within a few months, productivity suffered in their
absence and job-security concerns were heightened among the other staff. Furthermore, PSC
contracts (which in order to be renewed, require the approval of Bonn and then US&FCS
headquarters) also heightened anxiety. The review team was on site during the last week of FY
1996 and witnessed the concern of some of the staff who, going into the weekend, had not heard
from headquarters or Bonn about whether their contracts had been renewed (although these
contracts were later renewed).

In addition, morale has been hurt by pay differentials among the various types of non-management
employees in Berlin. Worldwide pay scales and FTE constraints on US&FCS (which results in
the hiring of PSCs instead of FSNs) have resulted in significant pay differentials between some
staff performing similar work. We noted some jealousy and resentment among the staff over this
issue.

US&FCS Berlin management stated that some pay disparities were caused by out-of-date job
descriptions, and insufficiently clear assignments of responsibility for the staff, which were left
over from the previous administration of the post. Management also indicated an absence of a
career ladder structure to link the various functional levels within the organization. At the time of
our field work, management was moving to address this problem by rewriting all 10 position
descriptions, and applying for an upgrade for four positions, most of which are PSC positions.
Plus, management indicated a desire to create a more uniform and “transparent” personnel system
that is centered around the post’s priorities and provides clear steps for long-term career
advancement.

                                                 29
U.S. Department of Commerce                                                                 Final Report IPE-9287
Office of Inspector General                                                                              July 1997



Furthermore, US&FCS headquarters partly solved the PSC problem by granting multi-year PSC
authority to the Germany post. This allows the post to annually renew PSC contracts for up to
five years, rather than have to use the previous contracts, which had to be renewed annually by
headquarters. The pay differentials can be addressed in part by properly classifying positions, but,
in a larger sense, are not within the control of the post or of headquarters. We were told this
issue is intractable without action on worldwide pay scales set by the State Department.

However, part of the morale problem was clearly caused by the change of management at the post
that occurred in the summer of 1996. The current PCO has a radically different management
approach than the previous PCO. Staff were wary about extending loyalty to their new
supervisor, in part because of the high sense of loyalty felt for the previous incumbent. Staff felt
that the new PCO was not involved enough in their work and spent too much time out of the
office, and they were unsure about his management skills. We could not judge the management
skills of the PCO, but we did note that he spent a large part of his time out of the office. We also
noted that he was very aware of the management needs of the staff and spoke at length of his
vision for managing the office, which seemed thoughtful and reasonable.

Morale, according to staff, has also been hurt by their lack of computer support and frustration
with the level of available technology (this problem is addressed more expansively in section I of
this report). While it is normal that during a transition time staff will take a “wait and see”
posture with new management, we believe that the management can best improve morale and earn
loyalty by addressing the outstanding personnel issues expeditiously and improving the office’s
information technology base and support.

Collocation with USIS May Be the Best Solution to Berlin’s Location Issue

The US&FCS Berlin post is located in the Berlin Embassy Office, within what was part of the
former U.S. embassy in East Germany.6 It is a small, old, and relatively poorly maintained facility
(e.g., we noted many cracks in the walls and ceilings and a comparatively older
telecommunications systems) and is located outside of the main business district in Berlin. The
building is virtually inaccessible to business visitors, unless escorted at all times. The commercial
library is not open to business visitors, due to the heavy security in the building, which degrades
the library’s purpose. At the time of our review, there were plans to construct a new American
embassy in Berlin, which would be completed, according to some estimates, between 2004 and
2007. US&FCS Germany told us that there is insufficient room allocated for both its Bonn and
Berlin operations in the planned new embassy. In the meantime, we were told that other agencies

        6
          The Berlin operation is classified as an “Embassy Office,” a unique circumstance in the world. This
designation reflects the special historical circumstances of Germany’s capital, namely, the fact that the German
federal government was formerly in Berlin, is currently seated in Bonn, and will be returning to Berlin within a
few years. A U.S. Consulate General is in another part of Berlin.

                                                        30
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



in Bonn were beginning to trickle into Berlin, causing further cramping of space in the current
Embassy Office. US&FCS expects its Berlin operations will be forced out of the Embassy Office
before consolidation of all U.S. government elements in Berlin.

Because of its cramped facilities, US&FCS Berlin will not be able to absorb the US&FCS Bonn
operations into its current space. Nor is there, apparently, sufficiently allocated space in the new
embassy, which will not be completed for years after the consolidation anyway. US&FCS
Germany management currently favors moving to a former U.S. military office building that was
recently renovated in a suburb, Clayallee. Management favors this site because they believed that
it would be cheap (as it is government-owned) and accessible to visitors.

This site, however, is even further from the business district than the current site. While we were
told that it was extremely modern, with attractive working space and ample parking, and would
be easily accessible to visitors, we are not convinced that Clayallee is the best option. In fact,
Berlin management and the majority of staff were opposed to this option as well. Berlin
management preferred searching for a long-term lease of commercial space in the business
district. This may be a good option, as it was our impression that commercial space was being
renovated or built throughout the city, which was confirmed by the post. Berlin management
believes more advantageous leasing terms could be negotiated now while new space is under
construction and before the capital moves to Berlin (which, they believed, would drive up demand
for space and costs significantly).

We believe that the post should give careful consideration to collocating with USIS in Berlin.
USIS operates its “Amerika Haus” in Berlin within the central business district. The Amerika
Hauses (there are three remaining in Germany) are designed to provide business information
services, information on the United States, English-teaching materials, and space for educational
and cultural programs. Our tour of the USIS facility showed it to be spacious and attractive, and
the library was large and well-stocked with business information in text and electronic formats.

Our tour also indicated the USIS site may have enough room for US&FCS Berlin operations, as
USIS continues to downsize, vacating more space. Moreover, the facility is well-located in the
central business district. Due to conflicts between the former USIS and US&FCS staffs in Berlin,
and lack of Bonn leadership (see page 24), the two agencies have had a poor relationship in the
past. However, the Principal Officer in Berlin, who is the head of all U.S. government elements in
the Berlin Embassy Office agrees that the time may be right for these two staffs to collocate. We
believe that efficiencies may be gained for both agencies, and the business community may be
better served without compromising the mission of either agency.




                                                 31
U.S. Department of Commerce                                                      Final Report IPE-9287
Office of Inspector General                                                                   July 1997



Berlin’s Trade Missions Hurt by Lack of Adequate Recruitment

One of the Berlin post’s primary activities is to organize and lead trade missions into the states of
the former East Germany. However, the post believes it has not received adequate recruiting
assistance, particularly from ITA’s Office of Trade Development (TD). We were provided with
numerous examples of missions that were either canceled due to a lack of support for recruiting
(such as missions for the chemical and medical industries), or missions that were turned down by
TD but were recruited successfully by other ITA organizations (safety and security and
environmental industries). Past and present post management agreed that there has been so little
integration with and support from TD for their activities in eastern Germany that coordination is
no longer even attempted.

One TD official we spoke to who had recently participated in a show in Germany agreed that the
relationship with US&FCS on mutual trade event support was spotty worldwide, stating that the
problem has existed since ITA was created. He further stated that event support varied from
industry to industry and depended upon personal relationships between US&FCS and TD staff,
and that he felt that US&FCS was as guilty of lack of adequate support for TD trade missions as
US&FCS claimed TD was. In previous reports we have noted the need for greatly improved
coordination among ITA’s various organizations, in headquarters, domestically, and worldwide.

Relationships in Berlin Office Positive, Although Conflict
with the State Department over Roles in Trade Promotion Likely

There is a history of conflict between US&FCS Berlin and the State Department’s Berlin
economics section. Some of the tension appears to have been overcome with the arrival of both a
new PCO and Economics Officer. There is, apparently, a willingness by both parties to cooperate
on projects related to commercial matters. However, it is clear that each officer defines the
other’s roles in conflicting ways. Therefore, continuing conflict in the future over the appropriate
role of both organizations appears likely. The basic conflict, we believe, is rooted in rivalry over
commercial matters, the tone being set in Bonn between the heads of the organizations that we
have commented upon earlier in the report. Relations in Berlin, as in other constituent posts, are
reflective of this conflict. We have noted that, for example in Poland, these two units can work
together productively and harmoniously. We believe that the best way for the two organizations
to work effectively together is by the active intervention by the two heads of the organizations in
Bonn, the Ambassador, and the Consul General/Principal Officers at each constituent post to
ensure cooperation.

Berlin’s Internal Controls over Funds Are Generally Adequate

We assessed Berlin’s internal controls associated with the collection and reimbursement of funds.
We found that Berlin had adequate internal controls over its handling of funds received (such as

                                                 32
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



cash and checks). We, did, however uncover one small problem. We noted one check for $250
was not deposited by the end of the week that it was received, as required. Though post
management indicated it may have been post policy to hold some checks longer than the
requirements allow, US&FCS procedures are clear and represent proper procedures for the
handling of funds. Post management indicated that this policy will be reiterated to the PSC
responsible for deposit handling and that it will not occur again.


In response to our recommendation that US&FCS aggressively review options for location of its
Berlin office, US&FCS stated that several options, not including USIS space, are under study.
We reaffirm that the possible relocation of Berlin to the Clayallee is inadvisable, and applaud
US&FCS efforts to consider a variety of other sites. We maintain that the USIS site in Berlin
may still be viable, and that US&FCS Germany should reevaluate the possibility of relocating to
USIS space.

US&FCS also concurred with our recommendation to develop stronger ties with USIS in Berlin.

US&FCS concurred with our recommendation that Berlin observe proper procedures for the
handling of deposits, filing information, and maintaining proper inventory records. We believe
US&FCS has acted responsibly by ensuring that corrective actions were taken to address the
recommendation.

In addition, US&FCS concurred with our recommendation that US&FCS should ascertain
whether the new deputy commercial officer, after her first year in Berlin, might be more
appropriately assigned to a post that is currently without an American officer.


B.     DÜSSELDORF

Düsseldorf is the capital of Germany’s most populous state, North Rhine-Westphalia, which has
over 17 million inhabitants. Leading industrial sectors in the state include chemical and steel
industries, plastics, mechanical and electrical engineering, electronics, and the food industry.
Within FCS Düsseldorf’s consular district are three major trade fair cities, Düsseldorf, Essen, and
Cologne. Annually, Düsseldorf hosts about 45 international trade fairs devoted to capital goods,
fashion, medicine, leisure, and health.

The State Department closed the American Consulate in Düsseldorf in 1987, but US&FCS chose
to maintain its presence there due to the commercial importance of the area and the high level of
trade fair activity. In 1994, then Ambassador Holbrooke saw a need to significantly upgrade the
U.S. presence in Düsseldorf because it was one of Germany’s major commercial centers, and in


                                                33
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



1995, the American Consulate General re-opened its doors under an experimental “commercial
consulate general.”

Based on a Memorandum of Understanding (MOU) between the Departments of Commerce and
State, the two agencies are to operate the consulate and share common and direct administrative
support service costs. The MOU also calls for the Consul General to be filled, on a temporary
basis, by a US&FCS officer. The US&FCS officer, while holding the position of Consul General,
is detailed to the State Department and reports to the Charge d’Affaires for Germany. The
Consul General has a small staff (including an economic officer) and oversees all State
Department activities pertaining to the region. The Düsseldorf US&FCS office, located within
the American consulate, has good office space. The staff is experienced and knowledgeable, and
works well together, but would benefit from full-time management supervision.

It appears that upgrading the commercial operation in Düsseldorf has been a positive step. The
current Consul General is highly regarded by both the commercial staff and the business
community. According to the Consul General, the main reason for creating the commercial
Consulate was to have access to all levels of the state government and to use this access to the full
advantage of American business interests.

For example, after a major fire in the Düsseldorf airport last year, the local government decided to
undertake a $1 billion reconstruction of the facility. When the commercial staff learned that there
were going to be some problems with the way the tenders were being handled in the procurement
process, the Consul General intervened at the ministerial level and managed to get the government
to cancel its original tender and replace it with one where more companies (i.e., American) were
able to bid. Although the bid has not yet been awarded, a potential trade complaint was avoided.
According to the Consul General, both the quick reaction and the access to the highest levels of
government were made possible because of his presence and position as Consul General in
Düsseldorf. Nevertheless, we still believe that for US&FCS Düsseldorf to be effectively
managed, an American officer should be paneled for and assigned as soon as practicable.

Düsseldorf Needs an American Officer

The Düsseldorf commercial office needs day-to-day management by an American officer.
Headquarters officials told us that US&FCS policy is to have an American officer where three or
more staff are located. US&FCS Düsseldorf has a staff of six FSNs, but has lacked a full-time
commercial officer since July 1996. The US&FCS officer serving as Consul General is able to
spend a good deal of his time on trade matters, but his priorities are State Department activities
and he has little time to manage the US&FCS staff. To help fill the void, a junior commercial
officer from Bonn visits 2 to 3 times a week, as time permits.



                                                 34
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



Both the Consul General and the commercial staff informed us that they highly respect this
officer, but they all agreed that a permanent American officer would provide the commercial
section essential day-to-day guidance. The SCO also agreed that an American officer is needed
there but said that headquarters would not provide him with one. We suggested to the SCO that
the third officer position in Bonn be transferred to the Düsseldorf office, but the SCO stated that
this position was too important to his headquarters operation. Although Düsseldorf has an
experienced, knowledgeable staff, we believe that the visits by a commercial officer are
inadequate. We believe that export promotion could be handled more effectively if a commercial
officer were assigned there full-time.

In October 1996, headquarters agreed to place an American PSC in Düsseldorf, at least
temporarily, in order to provide leadership in the commercial office. While we do not disagree
with this temporary move to provide the Düsseldorf region with a much needed American
presence, we have concerns regarding this action. Specifically, PSCs are not allowed to perform
inherently governmental functions, such as supervising government employees. According to
headquarters, the PSC will not supervise the staff but will only perform representational work,
which should be useful in promoting U.S. exports. However, since this contractor will essentially
be substituting for the PCO position, this move gives the appearance that the contractor will be
supervising the staff. Headquarters must make clear to post management in Bonn that the PSC
must not supervise the commercial staff in Düsseldorf.

During a meeting with Germany’s regional management, we were informed that a PSC has
recently been hired and that ITA upper management has not yet consented to replacing the vacant
PCO position. We reiterate that a full-time American officer position should be placed there and
paneled within a year.

Morale Is Satisfactory, Though Job Security Concerns Exist

Morale is satisfactory in the office, but the entire staff believes a full-time PCO is needed. With
the departure of the former PCO in July 1996, the FSNs were very concerned about the future of
the Düsseldorf operation, as well as their own jobs. The FSNs’ concerns were heightened by the
fact that the PCO position was not staffed, but replaced with a part-time commercial officer from
Bonn. Although the staff is extremely pleased with this officer, they stated that the part-time
supervisor has too many other priorities in Bonn, and therefore cannot provide necessary day-to-
day guidance. After reviewing all the responsibilities placed upon this commercial officer, we
agree.

Administrative and Fiscal Issues Need Resolution

Several administrative and fiscal issues need to be addressed by the post. First, the Düsseldorf
imprest fund lacks proper safeguarding. Fund monies are stored in an unlocked metal cash box,

                                                35
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



which is kept in a locked file cabinet. However, the key to the cabinet is easily accessible. A safe
is not necessary, but properly securing the cabinet key is. Second, US&FCS Germany has been
paying for a vacant apartment in Düsseldorf since July 1996, when the PCO departed. US&FCS
headquarters informed us that they did not want to get rid of the apartment until they made a
decision on whether to assign a commercial officer to Düsseldorf. Since the decision as to
whether to assign an officer is uncertain, US&FCS should either give up the lease for the
apartment or sublet it (whichever is less costly) until a decision is made.



US&FCS did not directly address our recommendation that US&FCS consider filling the
commercial officer position in Düsseldorf. We believe that US&FCS headquarters, in
coordination with US&FCS Germany, needs to decide rapidly whether PSCs are adequate
replacements for commercial officers worldwide and, in this case, in Düsseldorf. We note that
PSCs are not allowed to supervise foreign service nationals. The PSCs at these posts are serving
as general replacements for American officers, which can lead to their involvement in prohibited
activities. The PSCs are essentially replacements for the PCOs, and have been given the title
“Director.” US&FCS Germany must take special care to ensure PSCs do not act as supervisors.
In the specific case of Düsseldorf, we reaffirm our recommendation that an American officer
should be paneled for that position.


C.     FRANKFURT

Frankfurt is the largest city in the state of Hessen, and has a population of about 6 million.
US&FCS Frankfurt is also responsible for coverage of three additional states with populations
totaling about 7 million. US&FCS Frankfurt, under a test period agreed to by the State
Department, also manages one-third of the area formerly managed by the Stuttgart consulate,
which was closed in July 1996. This arrangement is seven months old, and there is not enough
experience for assessment yet. In addition, US&FCS Frankfurt covers certain industries
Germany-wide, including banking and finance. Frankfurt is also a major trade fair location,
hosting about 15 major international fairs annually.

The Frankfurt office is staffed by an American commercial officer (this position is currently
vacant), three FSNs, including one secretary, and two PSCs. The former PCO left the post
unexpectedly in September 1996 after about two years. In addition, US&FCS Frankfurt
periodically uses interns and frequently employs short-term contractors. There is a vacant deputy
position that is not expected to be filled. Headquarters and many post staff agree that a deputy
position in Frankfurt is not necessary. In addition, headquarters and the post have agreed to have
a domestic officer fill in temporarily for the PCO. We endorse this short-term solution and urge
headquarters and the post to work together to ensure that the PCO position is filled expeditiously.

                                                 36
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



The non-American officer staff work well as a team, overcoming several difficulties detailed
below. In addition, the Frankfurt staff is a blend of experienced and recently hired employees, all
of whom appear to be dedicated to promoting U.S. exports. The staff is highly professional, an
assessment with which the former PCO agreed. In addition, the secretary is excellent at
responsibly performing traditional duties as well as many administrative duties previously
performed by the PCO or deputy.

Frankfurt Post Productive, but Hampered by Poor Relationships

US&FCS Frankfurt appeared to be effectively promoting exports and providing other assistance
through its coordination with multiplier organizations. Its products and services, including ISAs
and IMIs, were given high marks from American businesses and multiplier organizations
interviewed. Post management, the Frankfurt FSNs, and the former PCO stated that many export
actions result from the trade show activities. We confirmed that exporters assisted by the post do
business as a result of attending the trade shows.

The former PCO was active in the business community and reportedly well organized. He was
very good at getting contractor and other support for trade events, though more assistance would
be helpful, according to several FSNs. We also noted that relationships with American Chambers
of Commerce and the US Germany Business Club are good, as are relations with U.S. state
representatives located in Frankfurt. In addition, coordination with US&FCS Bonn was good.
Coordination with the State Department also appeared to be effective in Frankfurt, although the
relationship with the economic section needs more attention.

At the time of our inspection, US&FCS Frankfurt’s coordination with the US&FCS district
offices appeared strong, but the post’s relationship with US&FCS headquarters was poor. The
US&FCS regional manager and the former PCO had a poor working relationship that appeared to
be caused by personal as much as professional differences. Similarly, according to both US&FCS
Frankfurt staff and USIS staff, the PCO’s poor relations with USIS poisoned almost all efforts to
combine resources with USIS. For example, the mutual use of the two agencies’ large personnel
and information resources declined greatly under the former PCO’s tenure. After his departure,
US&FCS Germany’s deputy commercial officer and the Frankfurt staff began working to improve
the relationship with USIS in Frankfurt. One joint program was being planned at the time of our
on-site work. We support this effort and encourage US&FCS Germany to solidify its working
relationship with USIS.

Morale in the office was low under the former PCO. The former PCO was perceived as
autocratic, permitting the FSNs much less flexibility and initiative than under his predecessor. For
example, though staff wanted to run joint programs and otherwise take advantage of USIS’s
presence, the PCO discouraged such activities. In addition, the PCO allowed the staff little
flexibility in scheduling and planning program activities. Staff stated that their working

                                                37
U.S. Department of Commerce                                                   Final Report IPE-9287
Office of Inspector General                                                                July 1997



relationships were strained with the PCO, contributing to decreased morale. When a new PCO is
assigned to this office, employee morale should be an early target of his/her attention.

Collocation with USIS Should Be Explored

US&FCS Frankfurt’s office is good for conducting business, and is located 15 minutes (by car)
from the heart of downtown Frankfurt. However, relocating with USIS (a 10-minute drive from
downtown) should be seriously considered because it may save money and improve post
effectiveness.

While its current space is sufficient to support US&FCS Frankfurt operations for the foreseeable
future, it is not an advantageous location for US&FCS and may become more costly under
ICASS, which will be fully implemented in FY 1998. Collocating with USIS may result in lesser
costs due to shared services. US&FCS Germany management agreed that the USIS collocation
option should be examined. However, relations with USIS Germany need to improve for
collocation to work. (See page 24.)

USIS operates its Frankfurt “Amerika Haus” 1.5 miles closer to the central business district than
the current US&FCS Frankfurt office. Our tour of the USIS facility showed it to be spacious and
attractive, with a large and well-stocked library containing information in text and electronic
formats. The USIS site may be large enough to house US&FCS Frankfurt operations, especially
if USIS continues to downsize and vacate more space. We recommend that US&FCS begin
negotiations with USIS to determine whether the two staffs can efficiently collocate at the
Frankfurt Amerika Haus site.

Fiscal, Accounting, and Administrative Operations in Good Condition,
but Several Matters Require Attention

US&FCS Frankfurt properly maintains and adheres to procedures for handling of funds and
maintaining records. The imprest fund is secure, and the accounting system is maintained in an
outstanding manner. However, we noted that the post’s shoddy filing hampered the smooth
operations of the office. For example, many documents no longer needed still remained in files,
while other documents were not in a logical place or were missing. The US&FCS secretary in
Frankfurt and the former PCO agree that the system needs an overhaul. After visiting Frankfurt,
the new deputy commercial officer agreed with our finding and has authorized a reorganization of
the filing system. In addition, an inventory audit showed that the system to inventory property is
adequate, but the information input to the system is not current and in some cases inaccurate. For
example, the USTTA property transferred to US&FCS control has not been entered. We also
found that some property in the inventory sample we examined was labeled with a different
identification number than the number on the inventory control sheet.


                                               38
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



Also, US&FCS is using USTTA’s former telephone number, resulting in daily wasted staff time
answering calls from individuals requesting travel information. Changing the US&FCS number so
that it is not the same as the former USTTA number is one alternative to rectify the problem.
Another possibility is to use modern phone technology to screen calls and direct the travel
inquiries to the Visit USA Committee or other appropriate organization. Neither of these
alternatives is costly. After visiting Frankfurt, the new deputy commercial officer agreed with our
findings and has instructed that a telephone voice mail or message system be developed to handle
the excess incoming calls and that the post conduct a complete inventory of real property.



In response to our recommendation that US&FCS Frankfurt consider collocating with USIS,
US&FCS stated that Frankfurt relocation to USIS space is not a viable option. We maintain that
accommodation with USIS may still be possible, which could result in a better and less costly
location for US&FCS operations.

US&FCS concurred with our recommendation to develop a stronger ties with USIS in Frankfurt.
However US&FCS’s response also stated that the Germany SCO has never heard a complaint
about cooperation between the two agencies. We note that the poor relationship between USIS
and US&FCS Frankfurt was well known and brought to our attention by officials in both
agencies.

US&FCS concurred with our recommendation that the Frankfurt post observe proper procedures
for the handling of deposits, filing information, and maintaining proper inventory records. We
believe US&FCS has acted responsibly by ensuring that corrective actions were taken to address
the recommendation.

US&FCS did not directly address our recommendation that US&FCS fill the principal commercial
officer position in Frankfurt as soon as possible. However, we endorse the recent permanent
filling of the Frankfurt PCO position. The new PCO reported in on June 26, 1997.


D.     HAMBURG

The US&FCS Hamburg post is responsible for the states of Hamburg, Bremen, Lower Saxony,
and Schleswig-Holstein, Germany’s northernmost state. The total population of Hamburg’s area
of coverage is nearly 13 million. Leading industrial sectors include aerospace, shipping, and steel
processing. Hamburg had a commercial slowdown during East Germany’s existence, due to the
blockage of its traditional port trade because of the presence of East Germany and because the
countries to the east were communist nations that were not good trading partners. However, this
began to change with the collapse of East Germany in 1989. Other countries, such as Canada,

                                                39
U.S. Department of Commerce                                                   Final Report IPE-9287
Office of Inspector General                                                                July 1997



have taken advantage of the opportunities and reopened their Hamburg consulates. We note that
Showcase Europe approaches the European market on a regional basis, breaking trade barriers
and accelerating integration of the economies of Central Europe, Russia, and the Newly
Independent States. Hamburg has advantages to help meet these goals, because it is close to and
has traditional ties with those regions.

Historically, Hamburg employed an American officer and three to five other staff. However,
under the current SCO, Hamburg staffing has dropped considerably. Presently, the Hamburg
office is staffed by one FSN trade specialist and one American PSC, who cover Hamburg and the
areas north and east of the city. In addition, US&FCS Hamburg covers certain industries
Germany-wide. Since July 1996, there has been a vacant PCO position. Headquarters is
undecided whether to fill the slot, while the SCO believes a PCO is not needed. The former PCO
stated that both staff members are hardworking and productive, most notably the FSN, who has a
great deal of experience.

Possible Closure of Hamburg Post Requires Careful Study

There are several strong arguments for keeping staff in Hamburg. First, we were told that
Hamburg is ideally situated for some American companies to expand their marketing efforts into
the Baltic states, Scandinavia, Poland, the Czech Republic, and the Slovak Republic. Because
many of these nations are joining the European Union, Hamburg can be used as a base for
operations. Second, a presence in northern Germany reflects the fact that export opportunities to
Germany are widely distributed throughout the country. Third, while Hamburg is not a trade fair
mecca, as are some other German cities, it hosts about four major trade fairs each year in which
the U.S. Department of Commerce participates.

The SCO argues that staff may no longer be required in Hamburg for two reasons. First, the area
is not as full of opportunities as other regions in Germany. Second, with stagnant and decreasing
staff in the last few years and the same forecast for the next few years, Germany must cut where it
can most afford to cut. He argues that the Hamburg work could be handled from Düsseldorf or
Berlin.

However, we believe a presence in Hamburg may still be needed because of the reasons cited
above. We agree with the December 1996 US&FCS Germany decision to give Hamburg a trial
period, and then conduct a thorough review of the post’s effectiveness before deciding its fate.
We encourage US&FCS Germany to gather as much data as possible on export promotion
activities of the post in Hamburg before making a final decision.




                                                40
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



American Presence Needs Evaluation

As with Düsseldorf, the SCO and headquarters have agreed to hire an American PSC to
temporarily fill the need for an American to represent the US&FCS in Hamburg. However, we
maintain similar concerns about the long-term placement of a PSC to operate the office in this
region as in Düsseldorf. (See page 34.) More importantly, the final determination of whether
Hamburg requires an American officer should be made during the PSC’s time in Hamburg—
during Hamburg’s trial period. Regional management agrees that staffing needs for Hamburg will
be assessed during the remainder of FY 1997 and early FY 1998. If necessary, steps to acquire an
American officer for Hamburg should begin immediately after the assessment is complete.


US&FCS did not directly address our recommendation that US&FCS consider filling the
commercial officer position in Hamburg. As stated previously, we believe that US&FCS
headquarters, in coordination with US&FCS Germany, needs to decide rapidly whether a PSC is
an adequate replacement for a commercial officer in Hamburg. We note that PSCs are not
allowed to supervise foreign service nationals. The PSCs at US&FCS Germany posts are serving
as general replacements for American officers, which can lead to their involvement in prohibited
activities. The PSCs are essentially replacements for the PCOs, and have been given the title
“Director.” US&FCS Germany must therefore take special care to ensure that they do not act as
supervisors.


E.     Munich

Munich is the capital of Bayern (Bavaria), Germany’s southernmost state, with a population of
about 12 million. US&FCS Munich is also responsible for coverage of the state of Baden-
Württenburg, with a population of about 9 million. In addition, US&FCS Munich covers certain
industries Germany-wide, including aircraft and parts, processed food, and electronics. Leading
industrial sectors in the two states include tourism, aerospace, electronics, software, and
automobiles.

The Munich office is staffed by an American commercial officer and five full-time trade
specialists. There is a vacant deputy position which is not expected to be filled. Headquarters
and many US&FCS Germany staff, including the SCO and the Deputy SCO, agree that a deputy
position in Munich is not necessary. However, we believe the vacant clerical/administrative
position should be filled as soon as possible to handle the office’s many routine responsibilities.
It was apparent to us that filling this position would allow trade specialists to concentrate more
fully on their export promotion activities.



                                                 41
U.S. Department of Commerce                                                   Final Report IPE-9287
Office of Inspector General                                                                July 1997



The FSNs work well as a team, overcoming several difficulties detailed below. In addition, the
FSNs are experienced, hardworking, and innovative. For example, one of the Munich FSNs
created the International Buyer Program several years ago. Headquarters, including management
and MAC staff, concur that the US&FCS Munich staff is productive and seeking ways to improve
export promotion. While the PCO is active in the business community, well organized, and
dedicated, his management style has led to several problems. The PCO is overly formal and puts
in writing many of his disagreements with a variety of individuals. This makes productive
relationships difficult to establish and maintain, and contributes to low morale.

Cooperation with State Department Is Poor

Cooperation with the State Department is poor in Munich and has resulted in fewer joint
appearances and activities than under previous PCOs. The strain in the relationship seems to have
been caused primarily by the PCO’s management style (as noted above) and a poor personal
relationship between the Munich Consul General and the PCO. His relationship with the Munich
Consul General is so poor that both officers prefer not to attend events together, lessening the
effectiveness of trade advocacy and promotion efforts. Consequently, it has been difficult for the
State Department to agree with US&FCS Germany that the Munich PCO should increase his area
of responsibility to include Baden-Württenburg. While State Department officials made it clear
that they have serious difficulties working productively with the PCO, the increase in
responsibility was made necessary when US&FCS Germany closed its Stuttgart office in July
1996. We believe the SCO should work with State Department officials and the PCO to improve
the poor relationship.

Morale Low at US&FCS Munich

Morale is low, but work effort and productivity are not significantly affected. Interviews with all
the Munich staff showed that morale is low, due in large part to a poor relationship with the PCO.
While the PCO stated that he is open to ideas and other input from staff, many staff members
disagree. In addition, the PCO’s admittedly formal, and occasionally aggressive, style prevents
close teamwork between the PCO and the staff. US&FCS Germany management and our team
agree that the Munich staff is hardworking, effective, and productive. US&FCS headquarters and
the SCO all believe that the PCO in Munich has an ineffective style, and they have reservations
about his ability to properly lead this office. However, they also noted his strengths, which
include organization and innovation. We believe the SCO should work with the PCO to modify
the PCO’s management style in a way that will increase morale.




                                                42
U.S. Department of Commerce                                                   Final Report IPE-9287
Office of Inspector General                                                                July 1997




US&FCS concurs with our recommendation that US&FCS Munich staff conflicts and problems
need to be resolved by identifying concerns and their solutions, and that the SCO should establish
stronger and more effective communication with the staff. We note that US&FCS Germany has
taken several steps toward implementing the recommendation, including plans to stress the need
for an open and constructive atmosphere for relaying concerns to the new Frankfurt and Munich
PCOs, scheduled to arrive in summer 1997, and helping to alleviate job security concerns by
making all PSC contracts in Germany multi-year, subject only to the availability of funds.




                                                43
U.S. Department of Commerce                                                     Final Report IPE-9287
Office of Inspector General                                                                  July 1997



                                    RECOMMENDATIONS


We recommend that the Acting Assistant Secretary and Director General of the U.S. and Foreign
Commercial Service direct appropriate officials to take the following actions:

1. US&FCS headquarters should issue guidance stating how post-produced products and
   services are to be used in assessing post performance.

2. US&FCS Germany should include a section that specifically identifies, discusses, and
   considers marketing and conducting business in eastern Germany as an attachment to the FY
   1997 Country Commercial Guide and as an integral section in all subsequent CCGs.

3. US&FCS headquarters, in consultation with US&FCS Germany and other European posts,
   should develop a method to accurately measure the impact, costs, and benefits of Showcase
   Europe. Appropriate adjustments should be made to the level of resources and activities
   based upon this analysis.

4. US&FCS Frankfurt should reestablish an effective working relationship with the German Visit
   USA Committee in order to better promote U.S. travel and tourism.

5. US&FCS should develop meaningful performance measures for all major post activities,
   services, and products in order to accurately capture the impact of its efforts and initiatives
   and to help determine the proper level of resources needed by each post.

6. US&FCS Germany should reassess the level of participation in trade fairs and International
   Buyer Program activities in order to accurately capture the costs and benefits of these
   activities with the goal of identifying and participating in only those events producing the most
   meaningful US&FCS impact.

7. The SCO and US&FCS headquarters should discuss training needs and, if necessary, agree on
   redistributing the post budget to allow for adequate training of officers and non-officer
   employees. Regional training should be used if it will result in cost savings or other
   efficiencies. The post should also ensure that updated training plans are created for all staff
   and managers.

8. US&FCS Germany should devote appropriate resources to maintaining its Internet site in
   order to make it a viable, up-to-date trade promotion tool.




                                                 44
U.S. Department of Commerce                                                         Final Report IPE-9287
Office of Inspector General                                                                      July 1997



9. US&FCS Germany should seek, as appropriate, a waiver from BXA to allow its Foreign
   Service Nationals to conduct Pre-License Checks. In the interim, US&FCS Germany should
   have American officers conduct all pending checks.

10.       US&FCS headquarters should, within six months, begin implementing a detailed plan for
          US&FCS Germany staffing. The plan should include decisions on the recommended
          elimination of the Leipzig office and the future of the Hamburg operation, the eventual
          shut-down of the Bonn operation, and the move of the Bonn post to Berlin, and overall
          targets for US&FCS Germany set by US&FCS headquarters.

11.       The SCO should increase his attention and involvement with the implementation of
          ICASS, in order to identify areas where increases in costs can be minimized and where
          services can be reduced or otherwise eliminated.

12.       US&FCS should aggressively review options to immediately determine the best locations
          for its Berlin and Frankfurt operations. US&FCS should begin discussions with USIS to
          determine whether the two staffs can efficiently collocate at the Amerika Haus sites in
          Berlin and Frankfurt.

13.       US&FCS Germany should immediately take steps to solidify its working relationship with
          USIS in Berlin and Frankfurt.

14.       US&FCS Germany should ensure that the Berlin and Frankfurt posts observe proper
          procedures for the handling of deposits, filing information, and maintaining proper
          inventory records.

15.       US&FCS should fill commercial officer positions in Düsseldorf and Frankfurt as soon as
          possible, and possibly in Hamburg, depending upon the outcome of US&FCS’ evaluation
          of that operation.

16.       US&FCS should consider, after a year of experience in Berlin under the new deputy,
          whether this position might be more appropriately assigned to a post currently without an
          American officer.

17.       US&FCS Germany should seek to resolve staff conflict and morale problems at its
          constituent posts by identifying concerns and determining appropriate solutions. The SCO
          should work with the deputy SCO to establish stronger and more effective communication
          with staff. Possible solutions could include:

      -   facilitating intra-office communication through regular staff meetings,


                                                   45
U.S. Department of Commerce                                                 Final Report IPE-9287
Office of Inspector General                                                              July 1997



   -   providing a constructive atmosphere for staff to relay concerns to American officers at
       each post and directly to Bonn management when appropriate,
   -   emphasizing to American officers that management expects fair and professional
       interaction between themselves and their staffs,
   -   working with American officers to modify difficult or confrontational management styles,
       and
   -   alleviating job security concerns through use of multi-year PSC contracts and converting
       PSCs to permanent positions when possible and deemed prudent.




                                              46
U.S. Department of Commerce                                                Final Report IPE-9287
Office of Inspector General                                                             July 1997



                                         Appendix 1


LIST OF ACRONYMS

ADS            Agent/Distributor Service
BEM            Big Emerging Market
BXA            Bureau of Export Administration
CCG            Country Commercial Guide
CIMS           Commerce Information Management System
EPS            Export Promotion Services
FAAS           Foreign Affairs Administrative Support
FSN            Foreign Service National
FTE            Full Time Equivalent
IBP            International Buyer Program
ICASS          International Cooperative Administrative Support Services
IMI            International Marketing Insight
ISA            Industry Subsector Analysis
ITA            International Trade Administration
MOU            Memorandum of Understanding
OIG            Office of Inspector General
PCO            Principal Commercial Officer
PLC            Pre-License Check
PSC            Personal Service Contractor
PSV            Post-Shipment Verification
RAC            Regional Area Coordinator
SCO            Senior Commercial Officer
TD             Trade Development
TOP            Trade Opportunities Program
US&FCS         United States and Foreign Commercial Service
USIS           United States Information Service
USTTA          United States Travel and Tourism Administration




                                               1
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



                                           Appendix 2


LIST OF US&FCS SERVICES


Industry Sector Analysis (ISA)—structured market research reports produced on location in
leading overseas markets. Reports cover market size and outlook, characteristics, and
competitive and end-user analysis for a selected industry sector in a particular country. ISAs are
available on the National Trade Data Bank and the Economic Bulletin Board.

International Market Insights (IMI)—short profiles of specific foreign market conditions or
opportunities prepared in overseas markets and at multilateral development banks. These non-
formatted reports include information on dynamic sectors of a particular country. IMIs are
available on the National Trade Data Bank and the Economic Bulletin Board.

Customized Market Analysis (CMA)—market research made to order. A CMA report assesses
the market for a specific product or service in a foreign market. The research provides
information on sales potential, competitors, distribution channels, pricing of comparable products,
potential buyers, marketing venues, quotas, duties and regulations, and licensing or joint venture
interest.

Trade Opportunity Program (TOP)—timely sales leads from international firms seeking to buy
or represent U.S. products or services. TOP leads are printed daily in leading commercial
newspapers and distributed electronically via the Economic Bulletin Board.

Agent/Distributor Service (ADS)—customized overseas search for qualified agents,
distributors, and representatives for U.S. firms. Commercial officers abroad identify up to six
foreign prospects that have examined the U.S. firm’s product literature and expressed interest in
representing the firm's products.

Gold Key Service—custom-tailored service that combines orientation briefings, market research,
appointments with potential partners, interpreter service for meetings, and assistance in
developing follow-up strategies. Gold Key Service is offered by US&FCS in export markets
around the world.

Matchmaker Trade Delegations —''match'' U.S. firms with prospective agents, distributors, and
joint venture or licensing partners abroad. US&FCS staff evaluate U.S. firms' products and
services marketing potential, find and screen contacts, and handle all event logistics. U.S. firms
visit the designated countries with the delegation and, in each country, receive a schedule of
business meetings and in-depth market and finance briefings.

                                                 1
U.S. Department of Commerce                                                    Final Report IPE-9287
Office of Inspector General                                                                 July 1997



International Buyer Program (IBP)—supports selected leading U.S. trade shows in industries
with high export potential. US&FCS offices recruit foreign buyers and distributors to attend the
U.S. shows, while program staff helps exhibiting firms make contact with international visitors at
the show. The IBP achieves direct export sales and international representation for interested
U.S. exhibitors.




                                                 2
